<html>
<title> - HELPING AMERICANS GET BACK TO WORK: IMPLEMENTATION OF THE WORKFORCE INNOVATION AND OPPORTUNITY ACT</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]





                  HELPING AMERICANS GET BACK TO WORK:
                    IMPLEMENTATION OF THE WORKFORCE
                     INNOVATION AND OPPORTUNITY ACT

=======================================================================

                                HEARING

                               before the

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JUNE 15, 2017

                               __________

                           Serial No. 115-19

                               __________

  Printed for the use of the Committee on Education and the Workforce




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-713 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
            
                COMMITTEE ON EDUCATION AND THE WORKFORCE

               VIRGINIA FOXX, North Carolina, Chairwoman

Joe Wilson, South Carolina           Robert C. ``Bobby'' Scott, 
Duncan Hunter, California                Virginia
David P. Roe, Tennessee              Ranking Member
Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Tim Walberg, Michigan                Raul M. Grijalva, Arizona
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Todd Rokita, Indiana                 Marcia L. Fudge, Ohio
Lou Barletta, Pennsylvania           Jared Polis, Colorado
Luke Messer, Indiana                 Gregorio Kilili Camacho Sablan,
Bradley Byrne, Alabama                 Northern Mariana Islands
David Brat, Virginia                 Frederica S. Wilson, Florida
Glenn Grothman, Wisconsin            Suzanne Bonamici, Oregon
Elise Stefanik, New York             Mark Takano, California
Rick W. Allen, Georgia               Alma S. Adams, North Carolina
Jason Lewis, Minnesota               Mark DeSaulnier, California
Francis Rooney, Florida              Donald Norcross, New Jersey
Paul Mitchell, Michigan              Lisa Blunt Rochester, Delaware
Tom Garrett, Jr., Virginia           Raja Krishnamoorthi, Illinois
Lloyd K. Smucker, Pennsylvania       Carol Shea-Porter, New Hampshire
A. Drew Ferguson, IV, Georgia        Adriano Espaillat, New York
Ron Estes, Kansas

                      Brandon Renz, Staff Director
                 Denise Forte, Minority Staff Director
                                 ------                                

       SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE DEVELOPMENT

                   BRETT GUTHRIE, Kentucky, Chairman

Glenn ``GT'' Thompson, Pennsylvania  Susan A. Davis, California
Lou Barletta, Pennsylvania             Ranking Member
Luke Messer, Indiana                 Joe Courtney, Connecticut
Bradley Byrne, Alabama               Alma S. Adams, North Carolina
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Elise Stefanik, New York             Raja Krishnamoorthi, Illinois
Rick W. Allen, Georgia               Jared Polis, Colorado
Jason Lewis, Minnesota               Gregorio Kilili Camacho Sablan,
Paul Mitchell, Michigan                Northern Mariana Islands
Tom Garrett, Jr., Virginia           Mark Takano, California
Lloyd K. Smucker, Pennsylvania       Lisa Blunt Rochester, Delaware
Ron Estes, Kansas                    Adriano Espaillat, New York



























                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on June 15, 2017....................................     1

Statement of Members:
    Davis, Hon. Susan A., Ranking Member, Subcommittee on Higher 
      Education and Workforce Development........................     4
        Prepared statement of....................................     6
    Guthrie, Hon. Brett, Chairman, Subcommittee on Higher 
      Education and Workforce Development........................     1
        Prepared statement of....................................     4
    Wilson, Hon. Joe, a Representative in Congress from the State 
      of South Carolina..........................................     8
        Prepared statement of....................................     9

Statement of Witnesses:
    Berlin, Mr. Heath, Information Insurance Manager, Naval 
      Healthcare Clinic..........................................    17
        Prepared statement of....................................    19
    Dubin, Mr. Louis, Chairman, Governor's Workforce Development 
      Board, State of Maryland...................................    29
        Prepared statement of....................................    31
    Paczynski, Ms. Michelle, Deputy Assistant Director for 
      Workforce and Economic Development, South Carolina 
      Department of Employment and Workforce.....................    10
        Prepared statement of....................................    11
    Painter, Mr. Ron, President and CEO of the National 
      Association of Workforce Boards............................    22
        Prepared statement of....................................    24

Additional Submissions:
    Blunt Rochester, Hon. Lisa, a Representative in Congress from 
      the State of Delaware:
        Letter dated June 12, 2017 from the Council of State 
          Administrators of Vocational Rehabilitation............    62
    Bonamici, Hon. Suzanne, a Representative in Congress from the 
      State of Oregon:
        Letter to House and Senate Appropriations Committees on 
          FY 2018................................................    65
    Courtney, Hon. Joe, a Representative in Congress from the 
      State of Connecticut:
        Slide: WIOA in Eastern Connecticut.......................     7
    Espaillat, Hon. Adriano, a Representative in Congress from 
      the State of New York:
        Letter from Campaign for Youth...........................    74
    Ms. Paczynski:
        Article: With Dropping Unemployment, SC Workforce Agency 
          Elevates Focus on People with Barriers to Work.........    77
    Smucker, Hon. Lloyd K., a Representative in Congress from the 
      State of Pennsylvania:
        Letter dated June 29, 2017 from Opportunity Village......   108
 
  HELPING AMERICANS GET BACK TO WORK: IMPLEMENTATION OF THE WORKFORCE
                     INNOVATION AND OPPORTUNITY ACT

                              ----------                              


                        Thursday, June 15, 2017

                        House of Representatives

               Committee on Education and the Workforce,

       Subcommittee on Higher Education and Workforce Development

                            Washington, D.C.

                              ----------                              

    The subcommittee met, pursuant to call, at 10:07 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Brett Guthrie 
[chairman of the subcommittee] presiding.
    Present: Representatives Guthrie, Thompson, Barletta, 
Messer, Byrne, Grothman, Stefanik, Allen, Mitchell, Smucker, 
Davis, Courtney, DeSaulnier, Krishnamoorthi, Polis, Sablan, 
Takano, Blunt Rochester, and Espaillat.
    Also Present: Representatives Foxx, Scott, Wilson of South 
Carolina, and Bonamici.
    Staff Present: Caitlin Burke, Legislative Assistant; 
Courtney Butcher, Director of Member Services and Coalitions; 
Amy Raaf Jones, Director of Education and Human Resources 
Policy; Nancy Locke, Chief Clerk; Kelley McNabb, Communications 
Director; James Mullen, Director of Information Technology; 
Krisann Pearce, General Counsel; Lauren Reddington, Deputy 
Press Secretary; James Redstone, Professional Staff Member; 
Mandy Schaumburg, Education Deputy Director and Senior Counsel; 
Emily Slack, Professional Staff Member; Michael Woeste, Press 
Secretary; Tylease Alli, Minority Clerk/Intern and Fellow 
Coordinator; Austin Barbera, Minority Press Assistant; Denise 
Forte, Minority Staff Director; Mishawn Freeman, Minority Staff 
Assistant; Eunice Ikene, Minority Labor Policy Advisor; 
Kimberly Knackstedt, Minority Disability Policy Advisor; Kevin 
McDermott, Minority Senior Labor Policy Advisor; Udochi 
Onwubiko, Minority Labor Policy Counsel; and Veronique 
Pluviose, Minority General Counsel.
    Chairman Guthrie. A quorum being present, he Subcommittee 
on Higher Education and Workforce Development will come to 
order. I will first yield to Chairman Foxx for 1 minute for an 
opening statement.
    Ms. Foxx. Thank you very much, Mr. Guthrie. I thank all of 
you for being here. This hearing is incredibly important for 
all of us as we look to see if the improvements to our 
workforce development system that we intended with WIOA are 
actually coming to pass. We are all here because we want to 
help Americans access all the resources they need to get back 
to work.
    This morning President Trump will sign an executive order 
aimed at promoting apprenticeships and skill-focused education. 
I love that term and I think it is a great way to refer to what 
we are doing. And it is a kind of focus that students and 
workers have needed from the White House for a long time.
    In just a few minutes I am going to excuse myself so I can 
go tell President Trump on behalf of this entire committee that 
we welcome his interest and his efforts to build a better 
workforce.
    Thank you, Mr. Chairman, for yielding. I very much look 
forward to reviewing the findings of the hearings.
    And I yield back.
    Chairman Guthrie. Thank you, Chairman Foxx. I appreciate 
that. Now I yield to Ranking Member Scott for 1 minute.
    Mr. Scott. Thank you. Thank you, Mr. Chairman. And I want 
to thank you and Ranking Member Davis for convening today's 
hearing. I think the conversation around changes that WIOA have 
made in our Nation's workforce development system in preparing 
Americans for high-skill jobs is a critical one. Today 
Chairwoman Foxx and I will be witnessing the President; We 
expect him to sign the executive order on apprenticeships. We 
know that registered apprenticeship programs are proven on-the-
job training models. They allow workers to earn while they 
learn, but when we send Federal dollars to promote and expand 
new apprenticeships we need to have accountability. And that is 
why I am hoping that we will not change the registration 
process. Federal dollars for apprenticeship programs now go to 
registered apprenticeship programs. You know what you get when 
you graduate, they are transferrable; other employers know what 
you can do and what you cannot do. If it is unregistered it is 
going to be difficult to get some kind of accountability.
    The Department of Labor and 25 State apprenticeship 
agencies establish a baseline for labor standards in the 
registered programs. So I hope today's announcement will not 
undercut the proven model. And while I cannot stay to hear the 
witnesses' testimony, I hope that part of this conversation 
they can tell about registered apprenticeship programs and how 
important they are and how they are aligned with WIOA. And I 
hope we can also discuss the dangers of allowing Federal 
funding to go to unregistered programs. But I think hopefully 
we can work this out because there is a strong consensus that 
apprenticeship programs are extremely invaluable to young 
people trying to get good high-skill jobs.
    So, Mr. Chair, thank you very much and I look forward to 
working with you.
    Chairman Guthrie. Thank you. Thank you for your comments. I 
now recognize myself for opening comments and welcome everyone 
to today's subcommittee hearing. I would like to thank our 
panel of witnesses and my colleagues for joining today's 
important discussion on the implementation of Workforce 
Innovation and Opportunity Act, WIOA.
    It has been almost 3 years since the bipartisan Workforce 
Innovation and Opportunity Act was signed into law and now it 
is time for Congress to explore whether or not the included 
reforms are being turned into action. Prior to the passage of 
WIOA, the Federal Government had over 47 separate but 
overlapping employment education programs across 9 different 
Federal agencies. To make matters worse, most of the programs 
targeted similar populations and provided similar services. 
Additionally, the report also found that only five of the 
programs had been evaluated for effectiveness and their success 
rate in helping unemployed and underemployed workers find 
employment. These programs were textbook cases of how the 
Federal Government can create a web of well-intentioned 
programs that are not serving the needs of the very Americans 
for whom the services are designed. As a result, congressional 
action was needed to fix these programs so American workers 
could succeed in a recovering economy.
    The bipartisan passage of WIOA streamlined the confusing 
maze of workforce development programs, decreased 
administrative overhead, required better coordination for adult 
unemployed and youth programs, and increased accountability for 
the use of taxpayer funds.
    I am proud to say that so many members of this committee, 
including Chairwoman Foxx, played an instrumental role in 
creating the final version of WIOA that was signed into law. 
Congress answered the call for workforce education and 
development reforms, but has faced an uphill climb in getting 
those reforms implemented on the State and local level. Despite 
the overwhelming support for the passage of WIOA it faced 
significant implementation delays during the previous 
administration. For example, the Department of Labor missed key 
deadlines when issuing guidance to State and local leaders. 
According to the Government Accountability Office these delays 
made it difficult to carry out many of WIOA's strategic 
priorities. While we have a new administration the need for 
congressional oversight is still essential to ensure a timely 
and proper implementation of WIOA.
    Our conversation today could not be timelier as President 
Trump announces new measures to strengthen our Nation's 
workforce, education, and development programs. While the 
President's executive actions are encouraging, the 
implementation of WIOA and congressional action to reauthorize 
Federal support for career and technical education can provide 
a lasting improvement to how our citizens found success through 
workforce development education.
    Our witnesses before us are some of the best stores of 
WIOA's success and I look forward to hearing their stories 
throughout today's hearing. Their testimony will only further 
emphasize the need for Federal entities to implement the 
reforms put forth in WIOA as Congress intended. Congress has 
provided the necessary statutory reforms to our workforce 
education and development programs and now, more than ever, it 
is important we deliver on implementation ensuring that 
American workers are being given the skills they need to thrive 
in the 21st century economy.
    I will now yield to my distinguished colleague and this 
subcommittee's ranking member, Susan Davis, for her opening 
remarks.
    [The statement of Chairman Guthrie follows:]

  Prepared Statement of Hon. Brett Guthrie, Chairman, Subcommittee on 
               Higher Education and Workforce Development

    Good morning, and welcome to today's subcommittee hearing. I'd like 
to thank our panel of witnesses and my colleagues for joining today's 
important discussion on the implementation of the Workforce Innovation 
and Opportunity Act (WIOA).
    It has been almost three years since the bipartisan Workforce 
Innovation and Opportunity Act was signed into law, and now it is time 
for Congress to explore whether or not the included reforms are being 
turned into action.
    Prior to the passage of WIOA, the federal government had over 47 
separate but overlapping employment education programs across nine 
different federal agencies. To make matters worse, most of the programs 
targeted similar populations and provided similar services. 
Additionally, the report also found that only five of the programs had 
been evaluated for effectiveness and their success rate in helping 
unemployed and underemployed workers find employment.
    These programs were textbook cases of how the federal government 
can create a web of well-intentioned programs that are not serving the 
needs of the very Americans for whom the services are designed. As a 
result, Congressional action was needed to fix these programs so 
American workers could succeed in a recovery economy.
    The bipartisan passage of WIOA streamlined the confusing maze of 
workforce development programs; decreased administrative overhead; 
required better coordination for adult, unemployed, and youth programs; 
and increased accountability for the use of taxpayer funds.
    I am proud to say that so many members of this committee, including 
Chairwoman Virginia Foxx, played an instrumental role in creating the 
final version of WIOA that was signed into law.
    Congress answered the call for workforce education and development 
reforms, but has faced an uphill climb in getting these reforms 
implemented on the state and local level.
    Despite the overwhelming support for the passage of WIOA, it faced 
significant implementation delays during the Obama Administration.
    For example, the Department of Labor missed key deadlines when 
issuing guidance to state and local leaders. According to the 
Government Accountability Office, these delays made it difficult to 
carry out many of WIOA's strategic priorities.
    While we have a new administration, the need for congressional 
oversight is still essential to ensure a timely and proper 
implementation of WIOA.
    Our conversation today could not be timelier as President Trump 
announces new measures to strengthen our nation's workforce education 
and development programs.
    While the president's executive actions are encouraging, the 
implementation of WIOA and congressional action to reauthorize federal 
support for career and technical education can provide a lasting 
improvement to how our citizens find success through workforce 
development and education programs.
    Our witnesses before us are some of the best stories of WIOA's 
success, and I look forward to hearing their stories throughout today's 
hearing.
    Their testimony will only further emphasize the need for federal 
entities to implement the reforms put forth in WIOA as Congress 
intended.
    Congress has provided the necessary statutory reforms to our 
workforce education and development programs, and now more than ever, 
it is important we deliver on implementation, ensuring that American 
workers are being given the skills they need to thrive in the Twenty-
First Century economy.
                                 ______
                                 
    Ms. Davis. Thank you. Thank you, Chairman Guthrie. I 
appreciate your convening this important hearing and want to 
thank all of our witnesses for being here. I also just want at 
the outset to express my prayers and my concerns for the 
victims and their families and we wish them a full recovery in 
the events of yesterday.
    Today's hearing is focused on the implementation of the 
Workforce Innovation and Opportunity Act, what we know as WIOA. 
This landmark bipartisan bill that chairman just spoke of, 
whose primary author is the distinguished chairwoman of our 
committee, Dr. Foxx, was signed by President Obama nearly 3 
years ago. I was certainly proud to be among the 400 House 
members who supported WIOA, and I know for those members of 
this committee who were here, I know that they are proud of 
that as well, and proud because it sought to help workers, to 
benefit businesses, revitalize our economy, and strengthen the 
middle class.
    Specifically, WIOA sought to ensure working people of all 
ages and all abilities could get the training and the skills 
they need to obtain well-paying jobs. It also sought to ensure 
employers, that they could hire a skilled workforce so our 
country can compete in the global economy.
    In my district the workforce system has become an incubator 
for developing innovative training programs for young people. 
Tech sector industry leaders, the workforce system, and 
educators are coming together to develop programs where young 
people emerge with life-enhancing productive skills sought in 
the marketplace. WIOA encourages and even demands that these 
groups come together to meet the needs of an ever-changing 
economy.
    The reality is that as budgets are cut, the first programs 
to go are the newest and the most forward-thinking. The 
innovation that WIOA is fostering could be halted, preventing 
the expansion of these partnerships.
    So, Mr. Chairman, fulfilling an innovative vision of our 
workforce becomes even more challenging, challenging when you 
consider the cuts put forth in the President's proposed budget. 
These cuts would undermine the progress and advancements our 
workforce system has made in the past few years. As you will 
see on the screen, and we are going to put up some numbers 
[laughter]--well, we always worry about the tech at the time 
that you need it, right?
    Well, hopefully that will get up there. The President 
proposed funding cuts for the youth, for the adult training, 
dislocated workers and adult education formula funds for each 
of our home States by about 40 percent, cuts by about 40 
percent from current funding levels for all of those programs. 
In all, the President's budget proposed a staggering $1 billion 
in cuts to these programs. And now that is on the screen, what 
it indicates for many of the members their home State, not 
their home district, but for their home State, the cuts in the 
four different programs.
    More importantly, we have not yet had a full year of WIOA 
implementation data to analyze. It is unthinkable to consider 
cutting critical programs without giving them a chance to 
become established and successful in our communities. 
Modernizing our Nation's workforce system is critical. 
Researchers estimate that at our Nation's current rates of 
training and educating, the United States will face a shortage 
of 5 million skilled, educated workers by 2020. And by 2020, 65 
percent of all jobs will require some form of postsecondary 
degree or credential.
    So in this hearing I hope we can take a close look at how 
our workforce systems have improved since WIOA. But also, I 
hope to hear how we can build upon these successes and surmount 
any challenges, because together we must ensure that WIOA 
fulfills its goals of improving the quality of job training 
programs and aligning training to real-world labor market 
needs. In particular, we must be sure to empower people with 
disabilities, disconnected youth, and dislocated workers who 
have faced barriers to entering our workforce systems for far 
too long.
    In the weeks and months ahead, I am hopeful that Congress 
will reject the President's proposed cuts to job training 
programs and make the right investments in our Nation's 
workforce development system. But we should not stop there. We 
should be working together on a bipartisan basis, just like we 
did with WIOA, to help workers get ahead, to make college more 
affordable and accessible, and restore balance to the economy 
so all Americans can provide a better future for their 
families.
    Thank you very much, Chairman Guthrie, for convening 
today's hearing and all the witnesses, again, for taking time 
out to be with us today. Thank you.
    [The statement of Mrs. Davis follows:]

Prepared Statement of Hon. Susan A. Davis, Ranking Member, Subcommittee 
             on Higher Education and Workforce Development

    Thank you, Chairman Guthrie. I appreciate you convening this 
important hearing, and I want to thank all of our witnesses for being 
here today.
    Today's hearing is focused on the implementation of the Workforce 
Innovation and Opportunity Act - or WIOA. This landmark bipartisan law, 
whose primary author is the distinguished Chairwoman of our Committee, 
Dr. Foxx, was signed by President Obama nearly three years ago.
    I was proud to be among the 400 House Members who supported WIOA 
when it passed because it sought to help workers, benefit businesses, 
revitalize our economy, and strengthen the middle class. Specifically, 
WIOA sought to ensure working people of all ages and all abilities 
could get the training and skills they need to obtain well-paying jobs. 
It also sought to ensure employers could hire a skilled workforce so 
our country can compete in the global economy.
    In my district the workforce system has become an incubator for 
developing innovative training programs for young people. Tech sector 
industry leaders, the workforce system and educators are coming 
together to develop programs where young people emerge with amazing 
skills.
    WIOA encourages and even demands that these groups come together to 
meet the needs of an ever changing economy. The reality is that as 
budgets are cut, the first programs to go are the newest and most 
forward-thinking. The innovation that WIOA is fostering will be halted, 
preventing the expansion of these partnerships.
    Mr. Chairman, fulfilling an innovative vision of our workforce 
becomes even more challenging when you consider the cuts put forth in 
the President's proposed budget. These cuts would undermine the 
progress and advancements our workforce system has made in the past few 
years.
    [INTERNAL NOTE: Please pause to allow for power point slide to be 
projected on to the Committee hearing room's screen.]
    [Additional submission by Mr. Courtney follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    As you'll see on the screen, the President proposed funding cuts 
for the youth, adult training, dislocated workers, and adult education 
formula funds for each of our home states by about 40 percent from 
current funding levels. In all, the President's budget proposed a 
staggering $1 billion in cuts to these programs.
    More importantly, we have not yet had a full year of WIOA 
implementation data to analyze. It is unthinkable to consider cutting 
critical programs without giving them a chance to become established 
and successful in our communities.
    Modernizing our nation's workforce system is critical. Researchers 
estimate that at our nation's current rates of training and educating, 
the United States will face a shortage of 5 million skilled, educated 
workers by 2020. And by 2020, 65 percent of all jobs will require some 
form of post-secondary degree or credential.
    In this hearing, I hope we can take a close look at how our 
workforce systems have improved since WIOA. But also, I hope to hear
    how we can build upon these successes and surmount any challenges. 
Together, we must ensure that WIOA fulfills its goals of improving the 
quality of job training programs and aligning training to real-world 
labor market needs. In particular, we must be sure to empower people 
with disabilities, disconnected youth, and dislocated workers who have 
faced barriers to entering our workforce systems for far too long.
    In the weeks and months ahead, I'm hopeful that Congress will 
reject the President's proposed cuts to job training programs and make 
the right investments in our nation's workforce development system. But 
we shouldn't stop there. We should be working together on a bipartisan 
basis - just like we did with WIOA -to help workers get ahead, make 
college more affordable and accessible, and restore balance to the 
economy so all Americans can provide a better future for their 
families.
    Thank you, Chairman Guthrie, for convening today's hearing and all 
the witnesses for taking time out of their schedules to be with us. I 
yield back my time.
                                 ______
                                 
    Chairman Guthrie. Thank you. I thank the ranking member for 
yielding back and her comments. Pursuant to committee rule 7C, 
all members will be permitted to submit written statements to 
be included in the permanent record, and without objection, the 
hearing record will remain open for 14 days to allow such 
statements and other extraneous material referenced during the 
hearing to be submitted for the official hearing record.
    Today I welcome Mr. Wilson to the subcommittee and 
recognize him to introduce our first witness.
    Mr. Wilson of South Carolina. Thank you, Chairman Guthrie, 
for inviting me to be here today. Chairman Brett Guthrie, 
Ranking Member Susan Davis, members of the subcommittee, I am 
grateful for the opportunity to introduce fellow South 
Carolinian Michelle Paczynski. I appreciate also being here 
with Chairman Virginia Foxx, who is working so closely with 
President Donald Trump to help American families with 
fulfilling lives. Ms. Paczynski serves as a deputy assistant 
director for workforce and economic development at the South 
Carolina Department of Employment and Workforce. In her role 
she advances a business inspired workforce system, one that 
develops strategic partnerships that enhances the workforce 
system's ability to produce a workforce pipeline for jobs.
    I am grateful that she is before the subcommittee to 
testify today. Through the efforts of Ms. Paczynski and other 
members of the South Carolina Department of Employment and 
Workforce, South Carolina has seen a remarkable success in 
implementing the Workforce Innovation and Opportunity Act. Of 
special note is their use of innovative strategies, like career 
and technical education program partnerships, apprenticeships, 
technical colleges to develop talent pipelines, and addressing 
infrastructure challenges to ensure that people find meaningful 
jobs as we have achieved, and she has at Boeing, at MTU, at 
BMW. We were just discussing all these; Michelin Tire 
Corporation, Bridgestone Tire Corporation, and now soon Volvo, 
to be located in South Carolina. Their success is clear and 
tangible. South Carolina's unemployment rate is at a 16-year 
low, and more and more businesses from around the country are 
realizing that our talented workforce and pro business climate 
make our State a great place to create or locate a business 
with meaningful jobs.
    I look forward to hearing Ms. Paczynski outline how South 
Carolina's Department of Employment and Workforce has 
implemented the Workforce Innovation and Opportunity Act and 
hope her perspective can provide examples and best practices 
other States can use when looking to maximize their 
implementation of the act and to help more of their citizens 
find jobs.
    Mr. Chairman, thank you for the opportunity to introduce 
Ms. Paczynski. I yield back.
    [The statement of Mr. Wilson follows:]

  Prepared Statement of Hon. Joe Wilson, a Representative in Congress 
                    from the State of South Carolina

    Chairman Brett Guthrie, Ranking Member Susan Davis, members of the 
Subcommittee, I am grateful for the opportunity to introduce a fellow 
South Carolinian, Michelle Paczynski. I appreciate being present with 
Chairwoman Virginia Foxx who is working so closely with President 
Donald Trump to help American families with jobs, fulfilling lives.
    Ms. Paczynski serves as the Deputy Assistant Director for Workforce 
and Economic Development at the South Carolina Department of Employment 
and Workforce. In her role, she advances a business-inspired workforce 
system--one that develops strategic partnerships that enhances the 
workforce system's ability to produce a workforce pipeline for jobs. I 
am grateful that she is participating to testify to testify before this 
subcommittee.
    Through the efforts of Ms. Paczynski, and other members South 
Carolina Department of Employment and Workforce, South Carolina has 
seen remarkable success in implementing the Workforce Innovation and 
Opportunity Act. Of special note, is their use of innovative 
strategies, like career and technical education program partnerships, 
apprenticeships, technical colleges, developing talent pipelines, and 
addressing infrastructure challenges, to ensure that people can find 
meaningful jobs, as we have achieved with Boeing, MTU, BMW, Michelin, 
Bridgestone, and now Volvo. With the vision of former Governors Jim 
Edwards and Carroll Campbell, South Carolina has grown to be the 
nation's largest manufacturer and exporter of tires as well as 
America's largest exporter of cars.
    Their success is clear, and tangible--South Carolina's unemployment 
rate is at a 16 year low, and more and more businesses from around the 
country are realizing that our talented workforce and pro-business 
climate make our state a great place to create or locate a business 
with meaningful jobs.
    I look forward to hearing Ms. Paczynski outline how South 
Carolina's Department of Employment and Workforce has implemented the 
Workforce Innovation and Opportunity Act, and hope her perspective can 
provide examples and ``best practices'' other states can use when 
looking to maximize their implementation of the Act and to help more of 
their citizens find jobs.
    Mr. Chairman, thank you for the opportunity to introduce Ms. 
Paczynski.
    I yield back.
                                 ______
                                 
    Chairman Guthrie. Thank you, Mr. Wilson. And I will 
continue this morning's introductions. Mr. Heath Berlin is an 
information insurance manager at the Naval Healthcare Clinic, 
Annapolis. Beat Navy. I have to say that. When I say Annapolis 
it is just in me. Mr. Ron Painter is the president and CEO of 
the National Association of Workforce Boards. And Mr. Louis 
Dubin is the chairman of the Governor's Workforce Development 
Board for the State of Maryland.
    I will now ask the witnesses to raise their right hand.
    [Witnesses sworn]
    Chairman Guthrie. Let the record reflect the witnesses 
answered in the affirmative.
    Before I recognize you to provide your testimony, let me 
briefly explain our lighting system. You will each have 5 
minutes to present your testimony. When you begin, the light in 
front of you will turn green. When 1 minute is left, the light 
will turn yellow. When your time is expired, the light will 
turn red. When the light turns red I will ask you that you wrap 
up your remarks as best as you are able. Members will have 5 
minutes each after your testimony to ask questions.
    First, I will recognize for 5 minutes for opening testimony 
Ms. Paczynski.

TESTIMONY OF MICHELLE PACZYNSKI, DEPUTY ASSISTANT DIRECTOR FOR 
 WORKFORCE AND ECONOMIC DEVELOPMENT, SOUTH CAROLINA DEPARTMENT 
                  OF EMPLOYMENT AND WORKFORCE

    Ms. Paczynski. Thank you, Representative Foxx, 
Representative Scott, Representative Wilson, Chairman Guthrie, 
Ranking Member Representative Davis, and the members of the 
subcommittee. It's an honor and privilege to be here today to 
talk about the progress we have made because of the Workforce 
Innovation and Opportunity Act. We are putting South 
Carolinians to work.
    South Carolina's economy is strong and growing as 
businesses continue to relocate and expand in our State. We 
have a record number of people working and an unemployment rate 
at a 16 year low. Congress' efforts to pass the Workforce 
Innovation and Opportunity Act has provided South Carolina the 
ability to tackle workforce development through innovative 
ways, to better engage businesses, and educate and empower our 
workforce.
    Our transformational journey began with collaboration. 
Under WIOA, the State Workforce Development Board is considered 
to be the State's architect and ambassador for workforce 
development. With majority representation by business leaders 
from the State's high-growth industries South Carolina's Board 
convened the Workforce Partners and executed a memorandum of 
understanding. This contract was the platform for stakeholders 
to move forward in unison towards retooling the workforce 
system and educating our existing and emerging workforce. WIOA 
fueled South Carolina's ability to deploy initiatives that 
address business and industry's concerns of a fractured 
workforce system.
    The South Carolina Talent Pipeline Initiative, also known 
as Sector Strategies, was the incubator for regional industry-
focused methods to build a skilled workforce that identify and 
address skill needs across key industries rather than focusing 
on transactional workforce needs of individual businesses.
    A critical component that was identified in analysis of our 
workforce system was a lack of public transit for employment 
and education. In an effort to empower regions' strategies to 
build their workforce, the State Workforce Development Board is 
investing State-level WIOA funds into communities that have 
designed innovative public transit models. WIOA champions the 
prioritization of services for those who face significant 
barriers to employment. South Carolina has experienced great 
success educating and employing ex-offenders into high-growth 
industries. Historically, ex-offenders were released into the 
same environment from which they came, lacking the education 
and skills needed to succeed outside a prison. Using Title III 
money South Carolina piloted a job center behind the wire, 
deploying a case manager and laptops onsite to provide the same 
services and information provided to job seekers in a one-stop 
center. Of the 516 people who have completed the program and 
have since been released, 75 percent are earning wages. Seeing 
the outcomes from this pilot, the State Workforce Development 
Board invested State-level WIOA funds to expand employment 
services into additional correctional facilities.
    WIOA has also reinforced our emphasis on apprenticeships as 
the premier tool for businesses to recruit and retain workers. 
South Carolina provides businesses with a $1,000 tax credit per 
apprentice for up to 4 years. With 893 active apprentice 
programs in South Carolina, the State boards sought to braid 
apprenticeships with services provided to priority populations 
and awarded State-level WIOA funds into competitive grants.
    WIOA emphasizes that relationships between the public and 
private sectors is crucial in the workforce system's ability to 
provide businesses with workforce solutions. Several members of 
our State Workforce Development Board also serve as 
representatives on the State Chamber of Commerce Board of 
Directors and as a result many of our workforce initiatives 
align with the State Chamber's 2025 education goals.
    In conclusion, WIOA has significantly expanded South 
Carolina's ability to strategically align resources, programs, 
and policies to build a skilled workforce and more effectively 
serve businesses.
    Thank you.
    [The statement of Ms. Paczynski follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Chairman Guthrie. Thank you for your testimony. I will now 
recognize Mr. Berlin for 5 minutes for his testimony.

TESTIMONY OF HEATH BERLIN, INFORMATION INSURANCE MANAGER, NAVAL 
                       HEALTHCARE CLINIC

    Mr. Berlin. Good morning. Thank you, Mr. Chairman, and 
members of the subcommittee.
    So I'm here as a successful candidate of the WIOA. And the 
program in Maryland is called the Maryland Tech Connection. So 
I'll just give you a little bit of how I came to be in contact 
with workforce development and ----
    Chairman Guthrie. Would you pull your mic up a little 
closer to you? It would be easier to hear everything.
    Mr. Berlin. Sorry. On December 31, 2015, New Year's Eve, 
the company I worked for, Resilience Technology Corporation, 
was acquired by another company, Integrata Security. After 
about a month, Integrata laid all the employees off. Some of us 
were called back a few weeks later, but by May of 2016, 
everybody was laid off. So I started looking for jobs, lots of 
interviews, lots of job fairs, things like that, without 
getting any traction. In July, I went to the Anne Arundel 
Workforce Development Center in Arnold, Maryland, and 
registered for one of the WIOA workshops. The next available 
one was in August as they were filling up. So after the 
workshop I met with a woman named Carla Win, who accepted me 
into the program. I qualified because of receiving unemployment 
benefits. And together with her, we sort of mapped out a 
strategy of what I needed to get reemployed and what the 
obstacles I was finding to employment. And some of those were 
certifications, the Network Plus, Security Plus, and Certified 
Ethical Hacker certification, which I had trained for 
previously, but never had taken the exams because, you know, 
previous employers had said they would pay for it and, you 
know, by the time I really needed them, there was nobody there 
to pay for it, particularly me. So they were able to provide 
funding for the Certified Ethical Hacker education course and 
exam and also vouchers for the CompTIA Security Plus and 
Network Plus exams.
    So I completed those and continued searching for a job; 
however, I wasn't successful. I had lots of support from the 
program. There was career coach Carl Cushinksi, who was very 
helpful in helping me focus my resume, practicing interviews 
before going to the actual interviews. And even though, you 
know, every day I would spend all day on the computer applying 
for jobs, phone interviews, video conference interviews, face-
to-face interviews, I just wasn't getting anywhere.
    So by November, I hit the 6-month mark, unemployment ran 
out, and I was still unemployed, at which time Carl introduced 
me to Alfredo Quieroga, we call him Q, who delivered--I guess 
he was the instructor and the guy that enrolls people in 
Maryland Tech Connection, which the program itself focuses on 
people who have been long-term unemployed, which they defined 
as greater than 6 months. So I met with Q in an informational 
seminar that he held at the Glen Burnie Workforce Development 
Center and made an appointment for testing. You report to the 
Laurel Anne Arundel Workforce Development Center for aptitude 
testing, sort of to see what maybe your passion is. You know, 
the program itself sort of has two tracks it seems to focus on 
with industry partners, one being IT and IT security, the other 
being biomedical science and technology. So the aptitude tests 
sort of help you define what you know and what you're good at 
and what your passion is, as well as maybe what soft skills you 
have or need. And after taking these tests you're assigned to 
the program. Luck of the draw.
    Anyhow, long story short, while in the program I discovered 
the Earn and Learn Program. While I had been looking for a job, 
I interviewed with this company called Phalanx, who wanted to 
hire me, but they were a startup so they didn't have money. So 
when I reached back out to them after being in the program for 
2 days and explained the Earn and Learn Program, they 
immediately got on board and asked for more information and 
said if we could work it out, if there would be the funding to 
bring me on board with some sort of subsidy while I was getting 
up to speed, they would be glad to hire me right away.
    So within a month of entering into the program I was 
employed full-time with Phalanx Security.
    [The statement of Mr. Berlin follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Guthrie. Thank you for your testimony. I 
appreciate it. I enjoyed hearing your testimony.
    Mr. Painter, you are recognized for 5 minutes for your 
testimony.

  TESTIMONY OF RON PAINTER, PRESIDENT AND CEO OF THE NATIONAL 
                ASSOCIATION OF WORKFORCE BOARDS

    Mr. Painter. Chairman Guthrie, Ranking Member Davis, and 
subcommittee members, I thank you for the opportunity to 
testify before the subcommittee today regarding WIOA, which 
this committee crafted and Congress overwhelmingly approved in 
2014.
    My name is Ron Painter and I'm the president and CEO of the 
National Association of Workforce Boards, which represents the 
Nation's 550 workforce boards and the over 15,000 volunteers 
who serve on those boards, a majority of whom are from the 
private sector. Boards coordinate, help launch, and oversee 
workforce development strategies for their cities, regions, and 
States, partnering with local elected officials, education, 
economic development, our entities in WIOA, adult literacy, 
Wagner-Peyser, voc rehab, and a large network of stakeholders 
in their region. There is an astonishing amount of churn in 
America's labor market. The most recent year saw over 60 
million separation from jobs and over 62 million hires. State 
and local workforce boards strive to understand the changes in 
labor markets that are evidence in this churn and to align the 
workforce development system accordingly so that people get to 
work quickly with the skills that are in demand.
    Workforce development boards leverage State and local 
general revenue funds, private philanthropic funding, and fee 
for service revenue. But the Federal funds are key to making 
all of this happen. We urge the 115th Congress to renew its 
commitment to a world-class skilled workforce through adequate 
funding of education at all levels in the workforce development 
system by maintaining the funding levels for WIOA in fiscal 
year 2018.
    WIOA brought numerous changes to the workforce development 
system, including requiring the Departments of Labor and 
Education to implement a common performance accountability 
system across the six core programs, which will provide a more 
consistent outcome data on which to base evaluations. While the 
most extensive full evaluation of workforce is still underway 
there are initial results from this gold standard evaluation. 
In the preliminary findings we conceded the availability of 
intensive services, people-to-people work that Heath 
experienced, increased earnings and employment for program 
participants. Evidence is also demonstrating that the most 
effective type of skill development is one linked directly to 
specific work and skills and demands within a region. Work-
based training models, which are the core of WIOA, including 
registered apprenticeships and industry-specific training, are 
very impactful and alone call for increased funding to WIOA.
    Let me mention quickly three examples. IT coding program in 
Eastern Kentucky, an initiative of the Eastern Kentucky 
Concentrated Employment Program, called Teleworks USA, 
identifies and developed legitimate remote work opportunities 
and helps people prepare for and land these jobs in numerous 
counties across the State. This effort, though, has thus far 
been estimated to have an economic impact of more than $13.1 
million in new wages to Eastern Kentuckians by network 
employees inside and outside the State.
    In Connecticut, Electric Boat, which builds nuclear 
submarines for the U.S. Navy and its supply network in the 
region, have benefited from an initiative led by the Eastern 
Connecticut Workforce Board called the Eastern Connecticut 
Manufacturing Pipeline Initiative. Electric Boat's work is 
expected to yield over 500 additional skilled workers and 
employers find that the initiative's trainees are better 
prepared for success. Likewise the boards in Newport News, 
Virginia, working with Huntington Ingalls on the shipyard. In 
Pittsburgh, a large urban healthcare provider struggled to hire 
and retain environmental service workers. These workers have a 
direct correlation to infection control, readmission, and 
customer satisfaction. Partners for Work, the workforce board 
in Pittsburgh, partnered with the Energy Innovation Center, 
itself a consortium of education and business, to build a mock 
hospital unit and design curriculum with a clear pathway to 
work. Thus far 100 percent of the participants have been placed 
with starting wages of $12.50.
    These examples demonstrate that workforce boards are core 
to their communities by convening industry sectors to ascertain 
skill needs, designing solutions with community college and 
others, funding some of those solutions, and successfully 
recruiting and placing participants. We assure you that 
advances in better data gathering and analytics, guided by the 
private sector's twin focus of effectiveness and continuous 
improvement further offer promise for an even more effective 
delivery system.
    And, again, we urge Congress to reject the proposed cuts.
    I thank you for the opportunity to testify and I look 
forward to answering questions.
    [The statement of Mr. Painter follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Chairman Guthrie. Thank you for your testimony. Mr. Dubin, 
you are now recognized for 5 minutes for your testimony.

   TESTIMONY OF LOUIS DUBIN, CHAIRMAN, GOVERNOR'S WORKFORCE 
              DEVELOPMENT BOARD, STATE OF MARYLAND

    Mr. Dubin. Thank you very much. Good morning. Thank you, 
Chairman Guthrie, and members of the committee, for inviting me 
to testify today. It's actually quite thrilling to be here 
today.
    I'm Louis Dubin, chairman of the Maryland Governor's 
Workforce Development Board, our State board, and managing 
partner of Redbrick LMD, a diversified real estate investment 
and management and development firm.
    The State board is made up of 53 members representing 
business, workforce, education, union, and partner State 
agencies. As required by Workforce Innovation and Opportunity 
Act, WIOA, our State board has a business majority and all 
members of the board are appointed by the governor. The goal of 
the State board is to build partnerships and relationships that 
align the needs of business and job seekers through a 
purposeful approach with key stakeholders to support workforce 
and economic growth in the State of Maryland. Maryland is open 
for business, and this is part of that theme. Inclusion, 
diversity, and determination are really the cornerstones of our 
success.
    We've created five business-led task force groups based on 
industry sectors. This is one of our real keys to I think our 
secret sauce. Those sectors include cybersecurity, IT, 
healthcare, life sciences, manufacturing, skilled trades, 
changing demographics, and marketing branding. We created an 
ambassador program where each of the board members had a 
responsibility to reach out to colleagues in their respective 
areas of expertise and invite them to join the conversation as 
part of the task force. We currently have over 100 workforce 
stakeholders--these are all volunteers--that meet to advise the 
governor and make recommendations on workforce development 
programs and strategies targeted to these specific in-demand 
industries and populations in the State. It's narrow, it's 
focused.
    State board built a framework to allow for collaboration 
and conversation among all workforce stakeholders centered 
around an anchor organization that has displayed best practices 
in a specific industry sector. For example, we had our 
cybersecurity task force hosted by the National Security 
Agency, which was attended by over 20 stakeholders on our 
cybersecurity task force. NSA described their recruitment 
process and communication with educational institutions, 
assessment procedures, and career training programs. This type 
of purposeful engagement allows both government and private 
sector to collaborate with the State and local workforce 
system, community college, and university leaders to develop 
relevant curriculums and transfer best practices so they can 
become part of the workforce ecosystem. Inclusion, diversity, 
determination, these task force connections have led to 
employers building relationships with individual school 
district leaders. Together they provide K-12 school 
professionals professional development to teachers, counselors, 
principals, and parents. Now they can guide students and make 
them aware of potential opportunities to participate in 
robotics competitions, cyber competitions, and exercises that 
can lead to a career in cybersecurity and IT.
    One of our State's leading nonprofits, Living Classrooms, 
runs two charter school and afterschool programs, recently won 
the divisional robotics championship with a team of inner-city, 
at-risk youth and competed and placed in an international 
robotics competition recently. Out of 1,300 teams 
internationally we got 51, 51st. Big successes. Living 
Classrooms is an example of how we can look at all of our 
State's resources, public and private, community and faith-
based, to provide our students with the skills they need to 
succeed in the workforce. Living Classrooms is doing wonders in 
Baltimore and D.C., but there are also terrific examples in 
rural communities. Congressman Barletta, the SHINE afterschool 
program in your district is an example of a rural afterschool 
partnership that is preparing our students for the future. 
Partnering with Carbon Career & Technical Institute, Lehigh 
Carbon Community College, SHINE provides an innovative 
educational model by teaming technical experts with academic 
teachers, and through hands-on career projects connects 
students to math, science, with a real-world application. 
Inclusion, diversity, determination.
    In April, Governor Hogan announced an apprenticeship awards 
to local community partners through the Apprenticeship 
Innovation Fund, which was developed with the U.S. Department 
of Labor with a $2 million grant to advance apprenticeships in 
Maryland.
    There are many possibilities for creating opportunities to 
assist the development of apprenticeship programs, not only in 
traditional industries such as construction and other skilled 
trades, but also by expanding into the nontraditional 
industries, such as information technology, healthcare, and 
cybersecurity. We have Apprenticeship Services, TranZed. 
They've received over 2 awards to provide pre-apprenticeship 
services to over 200 apprentices in the cyber and IT space. 
They'll provide outreach services to new employers, recruit and 
attract new apprentices through engagement with local schools, 
and assist job seekers with interview and technical skills. 
Inclusion, diversity, determination.
    We also have a benchmarking program, which is a little too 
long for my 5 minutes today that we've outlined in our written 
testimony that I appreciate you all reading as well.
    But thank you very much for giving me the opportunity to 
give our comments.
    [The statement of Mr. Dubin follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Guthrie. Thank you. I thank all the witnesses for 
their testimony. We will now move to member questions and I 
will recognize myself for 5 minutes for the purpose of asking 
questions.
    So, Mr. Dubin, in your experience, you just finished your 
testimony, what is the most important element to making the 
success of your State Workforce Board? What is the secret to 
your secret sauce I guess is there?
    Mr. Dubin. I mean, I think a lot of it is inclusion and 
people that are being included in the conversation in process 
having a stake, whether it's an educator, whether it's a job 
seeker. We have representation of really all different kinds of 
people that are in that workforce ecosystem on the task forces 
and there's a lot of energy behind it. And we require you in 
person, you know, attending a certain number of meetings if 
you're going to be on the board it somewhat disciplines. I 
think that's part of it, is just the citizens of our State that 
have a stake in the workforce system, which most people do, 
getting involved and really making this ambassadorship program 
an important cornerstone to build upon. And telling our board 
members, we have over 50 board members that this is one of the 
expectations we have of you of recruiting people. You know, 
it's that web, it's those connections that end up ultimately 
getting people trained and ultimately purposeful and meaningful 
employment.
    Chairman Guthrie. Thank you. I appreciate the answer to 
that.
    Mr. Berlin, I was interested to learn that your employment 
program focused on job seekers of similar age. After receiving 
the services did this focus seem to make sense? And of the 
services you were providing, that uniquely benefit job seekers 
your age, are there any you would recommend that other 
workforce development agencies should consider?
    Mr. Berlin. Other age groups or?
    Chairman Guthrie. So you were an age-particular workforce 
program, similar age workforce program? You thought that was 
beneficial to be of your age?
    Mr. Berlin. Well, of the participants in the class that I 
was in were of a similar age.
    Chairman Guthrie. Right. You thought that was helpful or 
you thought it should have been just diverse or all ages or you 
are sharing similar experiences I would guess?
    Mr. Berlin. Well, I think it was helpful because we all had 
sort of common life experiences, common purposes, common 
experience in looking for jobs. I mean, it was a diverse group, 
you know, ethnically. You know, I think probably the youngest 
people were in the mid, maybe early 30s. But in general 
everyone was pretty close in age to me.
    Chairman Guthrie. I guess my question, and you are 
answering it, is that having people in the similar situation--I 
mean, diverse in other--I am talking just age, it is helpful 
because you are having the same experience instead of having 
somebody looking for their first job or somebody looking for a 
change in career. So I appreciate your answer in that. Thank 
you.
    So, Ms. Paczynski, in enacting the Workforce Innovation 
Opportunity Act, Congress envisioned a business-led workforce 
development system that encourages increased efficiency, 
program innovation, and competition. What steps has South 
Carolina taken to increase competition and provide expanded 
program options to State businesses?
    Ms. Paczynski. We've worked very closely with our State 
Chamber of Commerce, who is the voice of business and industry, 
as well as other trade associations. And they've informed us 
that it's the accelerated training, the credentials, and the 
certificates that are essential to fill the jobs today, to 
address that skill mismatch, and soft skills. And the soft 
skill area in our State, developing a curriculum designed by 
the soft skill needs of our business and industry, and 
deploying that Statewide. Those are areas in which we've 
highlighted on, coupled with apprenticeships, making sure that 
not only that we can put in place apprenticeships for adults 
and youth, but incentivizing it for businesses. That $1,000 tax 
credit is essential.
    Chairman Guthrie. Well, thank you. And it is all important 
what you are doing. Every business person that I know is saying 
we need access to a better skilled workforce. So we appreciate 
what efforts you are doing.
    That concludes my questions and I will yield back and 
recognize Ranking Member Davis; 5 minutes for questions.
    Ms. Davis. Thank you very much, Mr. Chairman. And I wanted 
to say that I was really impressed by everything that you had 
to say. And I think in many ways, with your very eloquent way 
of providing that experience that you have had, that you make 
the case that WIOA is progressing, is making a difference. And 
at the same time, we know that there is not a lot of reporting 
that we have been able to benefit from yet because the full 
program has really only been there for a year. But I wonder if, 
you know, given that do any of you believe that a 40 percent 
cut in WIOA programs, kind of across the board for all the 
different--particularly the four different programs, would 
further our country's need for high standard training and good 
jobs?
    Anybody feel that would make a difference? Would it make us 
focus differently, consolidate any of those programs? No? Okay, 
just for the record I wanted to be sure I was hearing you 
correctly because I do think you were very enthusiastic.
    I also wanted to perhaps very quickly, and if you could 
just give one example, what do you believe would be the impact 
of changes if we did try to, whether it is consolidation, 
whether it is cutting of programs, what effect would that have? 
Is there one particular program that you think would really be 
effective?
    Mr. Painter, do you want to start, as you are a 
representative of the workforce boards?
    Mr. Painter. Thank you, Congressman Davis. We've been 
asking our members, like what impact do the cuts have? And 
certainly you can begin to see it quickly and rapidly when you 
start looking at a reduction in the number of adults like Heath 
that are supported in training. You're going to look at an 
retrenchment in the amount of training resources that are given 
to any one individual to try. And it's always a dilemma, do you 
serve more with a little bit or do you serve people deeply with 
the resources that they may need. But I think clearly as we 
look at the boards we see cuts across the board in the number 
of individuals who would be trained. I think it also starts to 
put deep pressure on the system because the kinds of things 
that we see in the early evaluation that are important are 
these intensive services. And that's where one individual talks 
to another individual, works with them on what kind of 
assessment, what kind of aptitudes they have, what kind of 
options and opportunities are available. So when you start 
impacting the training and then you start impacting the 
infrastructure of how people who are currently get there.
    Ms. Davis. Thank you. I wanted to just go down and see if 
others have just a different thought about where you think 
those cuts would go. Again, because we are talking about newer 
programs, innovative programs that could be actually first on 
the chopping list.
    Ms. Paczynski, do you want to respond? I think your 
microphone is not on.
    Ms. Paczynski. Thank you, Representative Davis. In South 
Carolina, we would likely serve fewer individuals and fewer 
businesses. However, the state of our economy will ultimately 
determine how we will move forward with workforce development.
    Ms. Davis. Thank you. Mr. Berlin, where would you have been 
if perhaps those relationships were not available to you to 
build on for your?
    Mr. Berlin. Right. Yeah, commenting on the funding cuts and 
stuff like that is a bit beyond me, but I can tell you that I 
do not know that I would be here today talking about having 
been successfully employed again if those programs were not 
available to me. And I think it would be a shame if other 
people that were in my similar circumstances did not have that 
available.
    Ms. Davis. Thank you. Mr. Dubin? In fact, you spoke very 
enthusiastically about apprenticeships, and one of the things 
if I could ask you this question, is that we know that the 
President is announcing a new direction supposedly today and I 
am wondering whether you think that there is a risk in not 
having programs that are going to have a high level of 
accountability as we look at apprenticeship programs or other 
certified programs. What risks do you see?
    Mr. Dubin. Well, I hoped there would be some corresponding 
additional programs that I think are going to be announced, or 
some of that, today. So I'm not privy to what those are, but I 
would hope there would some corresponding programs. I am very 
enthusiastic on apprenticeships and CTE. I know it's a whole 
other discussion, but I would hope that the dialogue includes 
not only apprenticeships, but CTE in our schools, that are 
pathways into very meaningful employment. In many cases these 
young people--we have a lot of CTE success stories come to our 
State board. They're making a lot more than their colleagues a 
few years before graduating from high school and they just 
started to save and some of them have bought their first house.
    Ms. Davis. Thank you. I know my time is up and we have to 
be reminded that these are Federal dollars that are going into 
those programs so that there is an important element. Thank 
you.
    Chairman Guthrie. Thank you. Ranking member yields back. I 
now recognize Mr. Mitchell for 5 minutes for questions.
    Mr. Mitchell. Thank you, Mr. Chair. I have an interesting 
experience in that I began in workforce development in 1978. I 
am dating myself. Those have been around for a while; remember 
SDA. And I experienced SDA, JTPA, WIA, and WIOA. Different 
place on WIOA. We operated those programs. When I started out I 
worked for the State of Michigan in the Bureau of Employment 
Training. What is amazing to me is it has taken this long to 
get an evolution that we, in fact, recognize that you have two 
customers: you have the employer community and you have 
individuals needing assistance to go to work, because it has 
taken that long to make this evolution. If you think about it, 
quite an interesting world where it is largely government-
driven back at SDA and JTPA days to finally recognizing that we 
really have to serve the business community and the individuals 
seeking employment
    The ROI is currently improving for both taxpayers and 
individuals seeking assistance, and that is a wonderful thing 
to see finally we can get a better handle on measuring that. I 
am concerned, however. A couple of things I want to address 
with questions. One is about the idea that two things have been 
said. Well, we have gotten improvements and with more money we 
can get more improvements. I spent 30 years in private business 
and we did not just throw money at it to get improvements, it 
was improving how we deliver the system. Help me out. Maybe 
Miss Paczynski can help me. What was the unemployment rate in 
South Carolina in 2010 to 2012? What was the unemployment rate 
then, roughly? Pick a number.
    Ms. Paczynski. I would say I don't have that number in 
front of me, but significantly higher than the current 4.3. 
Perhaps right around 8 percent, but I don't know for certain.
    Mr. Mitchell. Yeah. And in my State it was double digits. 
It was truly brutal in Michigan. And yet at this point in time, 
some members of the committee and others argue that we need to 
fund to WIOA at the exact same level that we funded it 
historically, with, of course, various cost of living increases 
or, you know, adjustments. But the unemployment rate is down 
dramatically. Your service population is reduced, especially 
among the dislocated workers. And I think we need to be honest 
about that as you talk about it in the appropriations process 
in Congress that what do we need to meet the needs of 
individuals and businesses and not just, well, we spent that 
last year, so we need to spend it this year. That is a 
government mentality, that is not realistic private sector 
mentality. And so as we talk forward we need to do that here in 
Congress and I would encourage all of you to do that. Yeah, we 
require adjustments.
    The other fallacy, and all of you here know that, is that 
if this reduction--and I am not here rallying for a 40 percent 
reduction in workforce development funds, trust me on that--
that all of it is reduced from training grants, from what 
trains people.
    Mr. Painter, how much is allocated for the workforce board, 
State administration?
    Mr. Painter. Administrative expenses under WIOA are limited 
to 10 percent.
    Mr. Mitchell. At the Agency?
    Mr. Painter. At the workforce board level, yes.
    Mr. Mitchell. And then at the State it is how much? Do you 
know?
    Mr. Painter. It would be the same 10 percent.
    Mr. Mitchell. That is 20. And then when I worked at the 
State, and it is still the case now, there is also something 
called the indirect cost rate, which is another 5 or 7 percent. 
So pretty quickly, my point is, is that we peel off money out 
of the system with a whole series of levels of administrative 
costs, and we are assuming any reduction in grants is going to 
simply result in this chart. It is not true, it is not 
accurate. And one of the things we need to do as a system, both 
here in Congress and I encourage you to do, is look at how much 
we are putting in admin and what do we need to do to in fact 
focus the money as much as we can and reduce those 
administrative costs. That is what we did as a business.
    One quick question, also, if I could, and maybe, Mr. Dubin, 
you could help me. One of the things we have experienced in 
Michigan is challenges with linking the workforce development 
programs, private sector programs with the K-12 education 
system. We still have not gotten that where it is working well 
so we can begin the current technical ed for children, young 
people, when they are still in school so they transition out to 
an apprenticeship or something like that. What recommendations 
do you have that would help with that?
    Mr. Dubin. Well, our superintendent of schools sits on the 
board. Actually, most of our cabinet in the State sits on the 
Workforce Development Board, and many of them come to the 
meetings. And the time before last we had our superintendent of 
schools and most of the meeting was around CTE and education 
and the awareness of that. And we had many employers there, we 
have the union and other representatives there and on the 
board, and the board is somewhat of an educational opportunity 
and we use it as that. We usually have two or three 
presentations each board meeting about subject matter or some 
of these programs people may not really know about. And just 
having the superintendent of schools, that's a good first step 
I think.
    Mr. Mitchell. I think you are right. And one final comment, 
Mr. Chair, is that my robotics same says they can take your 
robotics team. [Laughter] Thank you. Thank you. I yield back.
    Chairman Guthrie. I thank you, gentleman, for yielding 
back. I now recognize Mr. Courtney for 5 minutes for questions.
    Mr. Courtney. Thank you, Mr. Chairman. I really appreciate 
you and the ranking member putting the spotlight on WIOA. I was 
at the Executive Office Building the day the law was signed 
into law on July 22, 2014. It was a beautiful sight. President 
Obama, Vice President Biden, Chairwoman Foxx, bipartisan group 
responding to an issue that I think every single member has 
heard loud and clear from their district. And the other thing I 
remember from it, there was not a single TV camera in the room 
and when you tried to sort of find the press coverage it was 
just buried. And, you know, I guess you can sort of draw a lot 
of conclusions from that.
    But again, I appreciate Mr. Painter bringing up the EWIB 
Board in Eastern Connecticut, which is my district. Again, the 
ramping up of ship production, submarine production, has been a 
phenomenon that has been going on over the last 3 or 4 years. 
The demand for welders, electricians, machinists, is off the 
charts, along with engineers and designers.
    And the statistics that you shared in terms of what the 
Eastern Connecticut Manufacturing Pipeline Program has 
produced, frankly, is only just a part of the story. I mean, 
about the 4-, 500 that have come through these programs and 
have been snapped up immediately. The employment rate is 100 
percent for people that are going through there with great 
jobs, with good benefits. The fact of the matter is, is that 
the registrants into the program is about 10 times as large, 
over 3,000 people have gone into the portal to sign up. And 
again, we are moving forward in terms of getting people 
enrolled in future classes.
    But two things: number one, it shows that this sort of 
narrative that Americans don't want to get involved with dirty 
manufacturing is a false narrative. I mean, the fact of the 
matter is that there really are takers out there who if they 
are given the opportunity to close the skills gap, they will do 
it.
    And the second, obviously, is that the capacity in the 
system is still not enough in terms of, you know, satisfying 
both the demands signal, because EB will probably hire well 
over 1,000 people this year, and that is going to continue into 
the next probably 10 years at a steady clip. And so it is 
demand on both sides in terms of workers and employer to meet 
the needs.
    The American Ship Building Association actually talked 
about, you know, the 350-ship Navy, which came out of the Obama 
Secretary of Navy, Secretary Mavis, but embraced by President 
Trump as well. We are looking at about 18-, 25,000 new workers, 
and these are really skilled positions, if we are going to meet 
the Nation's demand for this. And there really is no other sort 
of strategy other than WIOA in terms of really trying to take 
on something that large.
    The other point I would just simply make in terms of the 
follow-up of the prior--and I am going to ask a question, but 
if you look at the funding levels for 2017's Omnibus that we 
just passed in April, it is still below what was in the 
authorized levels in WIOA. Again, the bipartisan WIOA, which 
authorized, you know, higher levels of funding than what was in 
the 2017 budget, and then that is the budget that Ms. Davis, 
you know, used as her baseline in terms of the cuts that were 
proposed in President Trump's budget, 40 percent. So we are 
talking about a level that is lower than what was authorized by 
a bipartisan bill and we are cutting from that another $40,000.
    So the capacity in the system in my district in terms of 
dealing with those 3,000-plus people who have entered the 
portal and registered is going to be reduced under this budget. 
And, you know, if there are efficiencies that we need to look 
at, you know, in terms of overhead, let us do it. But the fact 
is that we are going to lose all the momentum that is happening 
all over the country with these types of drastic cuts.
    And, again, what you are seeing is, again, not just in 
Eastern Connecticut, Mr. Painter, right? I mean, this is 
something that is aerospace, you know, other sectors that 
skills gap exists, is that correct?
    Mr. Painter. Yes. You know, I don't visit a board, I don't 
hear from a board that says we have no issue around a skilled 
workforce. It's all over the place. A lot of conversation now 
around where the unemployment level is and what about the folks 
who are still out there, outside of the labor market, what is 
the situation with the workforce. But you're right, 
Congressman. And I think it's where we fought hard for 
business-led boards at the State and local level because we 
firmly believe, as Mr. Dubin pointed out, that when business 
gets involved we do look at things like effectiveness and we do 
look at efficiencies.
    When I first got into this business, 1988, job training 
began to have performance standards or an accountability 
system. We have to perform in order to maintain local 
designation, we have to perform as States. So I think what I 
hear universally from directors is that if WIOA did nothing 
else, it focused the workforce system on, to borrow a phrase, 
job 1, and that is getting talent to business. And that's what 
we're about.
    Chairman Guthrie. Thank you. Thank you to the gentleman for 
yielding. I now recognize Mr. Smucker for 5 minutes for 
questions.
    Mr. Smucker. Thank you, Mr. Chairman. First, Mr. Berlin, 
thank you for being here. We appreciate you sharing your story.
    Question for Ms. Paczynski and Mr. Dubin. My district is 
home to numerous groups that serve individuals with 
disabilities, including groups like VisionCorps, UniqueSource, 
and SourceAmerica. And through recent conversations that I have 
had with some of these groups regarding the interpretation of 
WIOA, I am concerned that jobs for people with disabilities are 
being threatened by inconsistent implementation of portions of 
WIOA. I understand that in recent weeks 19 State vocational 
rehabilitation agencies have stopped making placements to 
nonprofit agencies for AbilityOne program jobs. And the 
guidance that they are referencing is a Department of Education 
FAC entitled ``Integrated Location Criteria, the Definition of 
Competitive Integrated Employment.''
    Now, in my district these jobs are located in integrated 
settings, pay well above minimum wage. In many communities 
AbilityOne jobs are among the best jobs available, especially 
important given the fact that 80 percent of people with 
disabilities don't have jobs at all. These jobs take place on 
military installations, at GSA buildings, and at many Federal 
agencies where daily interaction with the general public and 
other government employees is a daily occurrence. And in fact, 
in addition, these jobs pay an average hourly rate of $13.27.
    State VR agencies have been making placements to AbilityOne 
jobs through nonprofits for many years. So not only have 
thousands of individuals with disabilities found meaningful 
employment, but they have also reduced their reliance on public 
assistance programs while becoming proud taxpayers.
    So my question is, are your States still making VR 
referrals? If not, why? What are you doing in South Carolina 
and Maryland to protect access to jobs for your constituents 
with disabilities?
    Ms. Paczynski?
    Ms. Paczynski. Yes, thank you, Representative Smucker. In 
South Carolina, we are partnering very closely with our 
vocational rehabilitation partner. They are involved with us 
from creating strategies to allying priority populations with 
the job openings. They are with us hand and foot, elbow to 
elbow, as we talk about better business engagement. They are 
with as we move forward and we're putting forth apprenticeships 
for priority populations. They are there with us, helping with 
some of those referrals so that the individuals are getting the 
same access to those apprenticeship opportunities that we know 
are so successful for work-based learning opportunities.
    Mr. Smucker. Thank you. Mr. Dubin, what is your experience 
in this area?
    Mr. Dubin. Good example, last month we actually had a neuro 
diversity, I guess, seminar at Towson State University on the 
autism spectrum and the unique challenges. I was graced with 
being able to attend that and I learned an awful lot. And I 
also learned that some of these barriers really are not 
disabilities, they are unique abilities in other things. And 
the autism spectrum is one of those where there's a lot of 
Maryland companies, especially on the IT side and cyber side 
that with that spectrum there are some unique skill sets. So it 
was really interesting, and I would encourage other states to 
have some of these types of meetings to educate people on the 
unique needs and abilities of what you're describing.
    Mr. Smucker. Thank you. And I am going to change the 
subject. I don't have much time, but really interested in 
hearing what your States are doing on apprenticeship programs. 
I come from a construction contracting background, so we made 
use of apprenticeships, but also, I mean, look at what other 
countries are doing and other States. I think bringing business 
to the table is such a fundamental part of making that 
successful. So I would be just interested hearing ways that you 
have worked to--you both have talked about effective 
apprenticeship programs in your States, how have you gotten the 
businesses engaged?
    Ms. Paczynski. For us the construction industry is one of 
our top sectors and it was the construction industry that came 
to us and said we would be willing and would like to have 
apprentices. And from the returning citizen population we can 
really make this work. If it were not for construction leading 
that way, business representatives informing us of that 
opportunity, I don't know that we would have made the progress 
that we have seen today.
    Mr. Smucker. Thank you. Mr. Dubin, 10 seconds.
    Mr. Dubin. ABC in Maryland, Associated Builders and 
Contractors, and the NSA, those are two big partners of our on 
apprenticeships. And, yes, the NSA does have apprenticeships 
for high school students.
    Mr. Smucker. Thank you.
    Chairman Guthrie. Thank you. Good timing, Mr. Smucker. I 
now recognize Mr. Takano for 5 minutes for questions.
    Mr. Takano. Thank you, Mr. Chairman. Mr. Painter, we have 
touched on these 40 percent cuts by the administration, 
proposed cuts. The administration has also discussed how having 
States take a larger role in Federal programming, including 
WIOA, could maybe compensate for this. And we all know that 
State budgets are incredibly strained. Would the States even be 
able to make this sort of financial adjustment in your opinion?
    Mr. Painter. Thank you, Representative Takano. I'm not a 
scholar of the State budgets, but there are not that many 
States--in fact, it would be a minority of States--that are 
putting funding into workforce development. A number of States 
have customized job training programs which blend with WIOA 
funding on economic development projects.
    Mr. Takano. Great. Thanks. I want to follow up on the 
apprenticeship theme. The media has reported that the 
administration will unveil a new apprenticeship program that 
will allow Federal dollars to flow essentially to unregistered 
apprenticeship programs. This concerns me. The registration 
process provides a national standard for apprenticeship 
programs and it has, for instance, established labor standards, 
like wage scale and antidiscrimination provisions. And I am 
concerned that this administration will undercut a tried and 
proven model.
    Now, Ms. Paczynski, South Carolina has become a model for 
expanding apprenticeships, going from 90 programs in 2007 to 
nearly 900 programs--congratulations on that--in industries 
that range from advanced manufacturing to healthcare to 
information technology. And what is impressive is that these 
are all registered programs.
    Can you comment on why South Carolina has used the 
registration process to support program quality and why 
participating employers are willing to register their programs 
in your State?
    Ms. Paczynski. For our business community registered 
apprenticeships offers a solution to the skill gap. And 
certainly in our State we've incentivized apprenticeships to 
further foster the use of that as a tool. We believe firmly 
that the willingness of business and industry to bring in the 
emerging workforce when coupled with an apprenticeship makes it 
an ideal learning situation for both the business and the 
youth. So we've seen great success because of our willingness 
to engage businesses and it is a matter, though, of removing 
some of the red tape that does come with the process.
    Mr. Takano. I want to know more about that at some, maybe 
offline, but businesses have not found registering their 
apprenticeships to be overly burdensome it doesn't seem like. 
From what I have here, all of the apprenticeships are 
registered in South Carolina. So it doesn't seem like it is 
necessarily for the administration to say that this money that 
he is proposing should flow to unregistered programs.
    Ms. Paczynski. Well, in South Carolina, registered 
apprenticeships is actually coupled with our State technical 
college system. So it becomes an educational tool that's used 
for businesses predominantly, especially with our new business 
and our growing business.
    Mr. Takano. This is very interesting to me. So South 
Carolina runs their Apprenticeship Carolina model through State 
community colleges and all of your 16 community colleges are 
engaged in the development and implementation of these 
programs. Now, can you tell us why that partnership with 
community colleges and other stakeholders is so important to 
the success of your approach?
    Ms. Paczynski. Certainly, it has to do with the educational 
piece and the skills that come from understanding what the 
business needs are and creating that apprenticeship to meet 
those needs.
    Mr. Takano. Could you have achieved the results you are 
getting without the support and services from these public 
sector partners, such as the community colleges?
    Ms. Paczynski. I think they have been absolutely 
instrumental in the success, yes.
    Mr. Takano. Well, thank you for that. Mr. Painter, do you 
have anything to add to this?
    Mr. Painter. With regard to the registration, what we're 
finding is I point to the West Michigan Workforce Board, which 
working in medical technicians actually, working with 
employers, help develop and file, and they are the sponsor of 
the registered apprenticeship. So it is a process that, you 
know, requires some skill. The registered apprenticeship also 
helps us in terms of the individual, having the credentials 
that are recognized more broadly across the industry.
    Mr. Takano. So it is about recognizable credentials. So 
what may seem like red tape to some folks--I mean, it looks 
like South Carolina has been able to overcome some of that 
burden and all of their 900 apprenticeships are registered 
apprenticeships. I am impressed with that. I just question what 
the administration is doing in terms of allowing--I applaud 
that he wants to have money going to apprenticeships, but I 
question about whether he should allow that to flow to 
unregistered apprenticeships.
    Thank you.
    Chairman Guthrie. Thank you. I thank the gentleman for 
yielding and I recognize Mr. Allen for 5 minutes for questions.
    Mr. Allen. Thank you, Chairman, and thank you all for 
participating today in this important hearing. A couple of 
things that I have observed talking to the business community 
in my district in Georgia. Well, first is workforce 
participation. You know, I understand the employment numbers 
in, of course, Georgia competes with South Carolina regularly 
for these businesses, but both States are enjoying a low 
employment number, but I was interested in South Carolina, as 
far as workforce participation numbers. These are people that 
maybe have dropped out of high school, that are either folks 
who have dropped out of the workforce who are not seeking 
employment and are able-bodied. Do you have any idea what that 
number is in South Carolina as far as the workforce 
participation rate?
    Ms. Paczynski. I do not have that figure with me, but we 
can get that to you afterwards.
    Mr. Allen. Okay. I would be interested to know is there a 
way to target those folks to get them interested in not only 
completing their high school diploma, but also getting into 
career education and some type of CTE program?
    Ms. Paczynski. In South Carolina, certainly, you know, we 
recognize very much our partnership with adult education. And, 
of course, they are in the communities and that essentially is 
our outreach to those that may have disappeared for a bit, is 
going into the communities and engaging them there, and then 
bringing them further into the services that are available.
    Mr. Allen. Well, we know that over in Ag, the other 
committee I serve on, that we have about 45 million people, 
say, participating in SNAP program. And certainly a percentage 
of these folks, you know, if given the opportunity for proper 
training, and we have had folks like that testify there, that 
if given the opportunity for proper skill training and then the 
opportunity for a job, they move off of most of these programs. 
And we got about 25 million people we need to get that done, so 
that is why I am interested in that.
    As far as the graduation rates, I called all of our county 
superintendents right at the end of the school year--I have 18 
counties in the district--and just checked in, talking about 
graduation rates. I have one rural county that has a 94 percent 
graduation rate. And I said how do you do this? And he said 
career track at a very young age. We take young people into the 
businesses, they see that, hey, I can do this, and they get on 
a track. And it has been very successful.
    Mr. Dubin, from your standpoint in Maryland, are you 
looking at your high school dropout rate and where it is and 
how you can take these young people that we lose and get them 
involved in the workforce and get them involved in a career 
that they would be very happy to participate in?
    Mr. Dubin. I can't give you the exact numbers and 
statistics, but I can give you something empirical quickly. A 
young lady from Frederick, Maryland, recently came in and told 
her story to our board. She was going to drop out of high 
school. She really wasn't going to go on the college track, but 
she loved working in the lab. And long story short, we had a 
CTE program that really took advantage of her skill sets in the 
lab. She ended up going through CTE, which was part of a 
community college, I think it was Frederick Community College 
program as well. When she graduated she was making around $15 
an hour. When she got her certifications and the rest of her 
credentialing, she was making over $20 an hour at 20 or 21 
years old and on her way to buying a house. So those are good 
stories. This was a young lady that came in, very tearfully, 
sort of not testifying, but we do these presentations at each 
of our board meetings, and told that story. So I don't have the 
exact statistics, but those are the kinds of impacts we're 
having.
    Mr. Allen. How did she know about this program?
    Mr. Dubin. It was a very in-demand program. We have limited 
resources in CTE in Maryland. That's a whole other issue. But 
it was very in-demand and she was thinking of dropping out and 
I think her guidance counselor told her about it.
    Mr. Allen. Okay. Okay. So your high school counselors know 
about the programs you offer there?
    Mr. Dubin. Oh, yes, sir.
    Mr. Allen. Okay. All right. So that is a good source. That 
is great. As far as, Mr. Berlin, the new law is emphasizing the 
importance of providing a wraparound service ----
    Chairman Guthrie. I believe the gentleman's time has 
expired.
    Mr. Allen. Oh, excuse me. I yield back.
    Chairman Guthrie. No problem. I now recognize Miss Blunt 
Rochester for 5 minutes for questions.
    Ms. Blunt Rochester. Thank you, Mr. Chairman. I want to 
thank the panel and also congratulate Mr. Berlin on your 
success. I, like my colleague, Mr. Mitchell, have been around 
for a while through JTPA, SDA, WIN, Manpower. I was Secretary 
of Labor when the Workforce Investment Act was initially signed 
and then worked for University of Massachusetts, Boston, at the 
Institute for Community Inclusion when WIOA was signed. And I 
can say, like many of you, there has been I would say a 
tremendous progression. When I think of the concepts of dual 
customer and the fact that we have to focus on both the 
employer and the job seeker; when I think about demand driven, 
that we are really focused on what does the business community 
need, using labor market information, and also looking at 
evidence based practices; there is a lot going on across the 
country.
    And I would say instead of less money, I am not going to 
say we need more in this environment, but I would say when the 
unemployment rate is low it is when you get to people who are 
maybe harder to employ, whether it is prison to work or whether 
it is welfare to work, it requires intensity. And so I would 
really like to focus on people with disabilities and get some 
feedback from you.
    Currently there are 56 million people with disabilities 
across our country and yet only about 29.2 percent are 
employed. And historically, our systems have not done a good 
job of employing people with disabilities. And what WIOA was so 
successful at was saying that there was a presumption of 
ability that people could work and should work and have the 
right to work. And so I was hoping you could share a little bit 
more about your stories and their experiences of employing 
people with disabilities and improving employment outcomes for 
people with disabilities.
    And I will start with Mr. Painter.
    Mr. Painter. Thank you, Congresswoman. I have to admit that 
it's not an area I'm steeped in, so I reached out to the 
Consortium for Citizens with Disabilities. We work a lot with 
respectability and ask Philip and his crew like what was going 
on. And I was really pleasantly surprised to hear his statement 
that they wanted to draw my attention and yours to the success 
of youth with disabilities under WIOA.
    Fully 15.6 percent of WIOA youth program participants were 
youth with disabilities. That means that over 13,000 youth with 
disabilities had unprecedented access to skill training and job 
placement. Fully 65 percent of them with disabilities entered 
into employment, ultimately a savings of over $300,000 per 
beneficiary. So we are making, I think, substantial progress.
    Ms. Blunt Rochester. Any of the other panelists have 
experiences and outcomes with people with disabilities?
    Ms. Paczynski. Representative Rochester, in South Carolina, 
I don't have outcomes, but we certainly have a lot of effort. 
And we have a coalition in our State that brings all the 
partners together that work with individuals with disabilities. 
And they engage the business community to find out what was the 
gap between individuals who had the skills and the hiring 
process, and from that really started to come to the table with 
some strategies on how we could move forward.
    We have a marketing campaign that has moved forward and we 
are expecting to see results from this. Certainly our State 
Workforce Development Board has identified that individuals 
with disabilities is a focus. And we've brought it to the 
attention of the business community and it's been well 
received.
    Ms. Blunt Rochester. Thank you. Thank you. Anyone else? 
Okay.
    And, Mr. Chairman, if I could enter a letter into the 
record from the Council of State Administrators of Vocational 
Rehabilitation.
    Chairman Guthrie. Without objection, so ordered.
    Ms. Blunt Rochester. Thank you. The other question that I 
had was, also, we talked a little bit about some minimum wage 
jobs, and so, Mr. Painter, can you provide examples of steps 
that States have taken to reduce some minimum wage jobs?
    Mr. Painter. I can get that information to you. We'll 
certainly look at it and talk to our members.
    Ms. Blunt Rochester. I would just close by sharing that I 
will be getting information from the Institute for Community 
Inclusion on projects that have been happening across the 
country in different places, very creative and innovative ways 
to help people who are on Social Security Disability move into 
jobs. And I think as we talk about the future we need to be 
looking at how we can continue the positive progression that 
WIOA has begun.
    Thank you. I yield back.
    Chairman Guthrie. Thank you for yielding. I will now 
recognize Mr. Byrne for 5 minutes for questions.
    Mr. Byrne. Thank you, Mr. Chairman. Good morning, 
everybody. I am the former chancellor of postsecondary 
education for the State of Alabama Community College System, 
former chair of a State Workforce Planning Council, member of 
the State Workforce Board, and we staff the State Workforce 
Board. So I am really pleased to hear all the progress we are 
hearing around the country.
    We passed WIOA my first year in Congress. So most of the 
hard work was already done before I got here, but I was really 
pleased to support it because it was in line with a lot of the 
things that I had learned, the lessons I had learned from my 
positions. And what we were really focused on to try to get 
more private sector leadership and try to respond to the needs 
of employers. So that was our intent. Sometimes we don't always 
hit the mark.
    And so what I would like to know, particularly from you, 
Mr. Painter, and you, Mr. Dubin, how we do or can we do better 
with the law than we did with WIOA?
    Mr. Painter. Congressman, thanks for the question. I think 
if there is anything that makes me more happier, I don't know 
what it is, as I travel the country, but to see the kind of 
business engagement that we have. For example, in Benton 
Harbor, Michigan, Whirlpool has trained three of the staff for 
our workforce board there, Kinexus in Six Sigma. They were the 
highest in their class. They are now working to look at how we 
do these things of increasing the effectiveness and the 
efficiency inside the system.
    When you look at the training programs, when you look at--
we just recently honored Lockheed Martin in the aviation 
consortium around the Tarrant County in the Dallas area because 
of the involvement. Businesses work hand-in-glove with the 
workforce boards not only to help identify what impact the 
aviation industry has in the Dallas region, but to develop a 
very unique video or a game that you can play on your 
smartphone called ``FLYBY DFW,'' which was designed by young 
people, built by young people with the workforce board and with 
business, and now engages lots of young people in learning more 
about the aviation industry. I think there are examples across 
the country like that. Congressman Thompson is very involved 
with career in technical education. We honored Wyoming 
Machines, which is in Minnesota. Two sisters started a company. 
They are very involved with not only the community college 
system, but the workforce boards in events like women in 
technology and reaching back. So it is happening.
    Mr. Byrne. The question is can we do better?
    Mr. Painter. Without question I think that's--you designed 
and I take very seriously continuous improvement as part of one 
of the core tenants of WIOA. And as the National Association of 
Workforce Boards we constantly talk to the workforce boards 
about we can do better. And I think that's where business 
engagement likewise helps us understand how.
    Mr. Byrne. Thank you. Mr. Dubin?
    Mr. Dubin. You know, my observations are really I guess 
twofold. One, we've made it on our State board, you know, it's 
important to do service. So in the business community or in the 
ecosystem of workforce we've made it to be, you know, something 
that's very, very important in terms of public service. A lot 
of us serve on the boards of our churches and community groups 
and nonprofits. This is very, very, very important. So we've 
made that a focus and we put the arm on businesses in our 
communities. So we've been selecting well, we've been trying to 
get that big web, you know, out there.
    I think it comes down to people being willing to give of 
their time and energy as a volunteer. I'm a volunteer. You 
know, I have a day job and this is something that's become a 
passion because it's a great way to serve. And that's part of 
the message I think we need to get out. This is a great way to 
serve and it's productive, because if you're smart about it 
you're also finding populations and groups of people that you 
can employ. And I think it's a really good thing. So I think 
service is getting that message across.
    Mr. Byrne. Well, I just wanted to close my time by saying 
this, I hear a lot of talk about money, and money is important. 
Golly, I know that having run these programs. But sometimes the 
most impact we have comes from when we bring in people from the 
private sector and the people from the private sector do things 
that government simply can't do. I wasn't very good at 
persuading a 15-year-old to be interested in career technical 
education, but if I brought in the local employer that would 
actually employ that 15-year-old when he or she finished that 
program, we got their attention and we got their mother and 
dad's attention as well.
    So I really want to commend your work and the work that we 
hope that we have begun under WIOA to get more private sector 
people involved because that's where the rubber is really going 
to hit the road.
    And I yield back.
    Chairman Guthrie. The gentleman yields back. Mr. Polis is 
recognized for 5 minutes for questions.
    Mr. Polis. Thank you so much, Chairman Guthrie and Ranking 
Member Davis. This is a very important topic. When WIOA passed 
in 2014, it really made important changes to better align our 
workforce development system with the skills that people need 
to succeed in the 21st century. I am proud that our Colorado 
State plan really seeks to do just that. The plan focuses on 
engaging the business community and industry to align the 
workforce training programs, as well as leveraging data to 
support strong accountability and innovation.
    We recently launched CareerWise, a program that aligns our 
educational workforce systems through a new public-private 
partnership I am very excited about with the State and industry 
leaders. CareerWise has a goal of placing 20,000 high school 
students in apprenticeship by 2027, which would give students 
real-world, on-the-job experience, put them on a path towards a 
good-paying career.
    Mr. Painter, in your testimony you mentioned support from 
WIOA grants for coding programs in Eastern Kentucky. In our 
State there are several coding boot camps, like Galvanize and 
the Turing School, which graduate students and help place them 
into good-paying jobs just waiting to be filled. But because 
these programs don't have higher education accreditation, they 
are not eligible for Federal education aid, they are largely 
self-paid. But some are exploring potentials for receiving 
State workforce grants, another potential avenue to help lower 
income families be able to avail themselves of those 
opportunities.
    Can you speak more about short-term accelerated programs 
like coding boot camps and what States can do to ensure 
quality, accountability, but also accessibility for the 
programs to receive funding?
    Mr. Painter. Thank you, Congressman. And Colorado is one of 
my favorite workforce systems to visit. You have a 
collaborative DNA, I think, or a gene in your DNA in Colorado. 
What we are seeing are these kind of short-term boot camps, and 
they're across industries. You can look at examples in 
Minnesota where the workforce board put together with the 
healthcare sector a boot camp that has been able to reduce 
turnover. So that's real money to business. When individuals 
know that they're ----
    Mr. Polis. Did the workforce center originate that or were 
they just kind of a partner in the conversations?
    Mr. Painter. They were a partner with business. Business 
came to them and said how do we reduce turnover in some of our 
entry level positions? So they designed a boot camp so the 
individual really does understand what the work is. There are 
examples in manufacturing, where workforce boards have designed 
boot camps around manufacturing. The robotics competition was 
mentioned earlier. It's an incredible program ----
    Mr. Polis. Are there any barriers to WIOA participation 
that we should be aware of or act to remove?
    Mr. Painter. I think when the funding is solely based on 
WIOA, you know, we talked earlier about cuts, when we're 
picking up the bill for these boot camps and we can't find the 
funds to braid, then they are certainly at risk.
    Mr. Polis. Another question, Mr. Painter, and we will go to 
anybody else who wants to address it. As you know, 
entrepreneurship is absolutely critical for our future success. 
Today's garage company could be tomorrow's employer of 
thousands of people. And recent research from the Coffin 
Foundation found that about 20 percent of gross job creation 
comes from brand new businesses.
    Can you talk about how WIOA supports entrepreneurship and 
is there more that Congress can do to support opportunities and 
entrepreneurship from self-employment to creating tomorrow's 
great company?
    Mr. Painter. We've come a long way in workforce boards 
supporting entrepreneurial training. One of the most gratifying 
projects is if you look at Gainesville, Florida, the Innovation 
Center at the University of Florida, the workforce board works 
hand-in-glove with them so that companies that need the next 
employee can find on-the-job training contracts through the 
board. Incumbent worker training is provided to entrepreneurs 
and startups to move those companies. So when you look at the 
wall of companies that have graduated, if you will, from the 
Innovation Center, it is replete with companies that have 
received WIOA support.
    Mr. Polis. Would somebody else like to address the 
entrepreneurship within WIOA and how we can further encourage 
that? No?
    Finally, Mr. Painter, a critical component of supporting 
Colorado's WIOA implementation is funding, of course. And as 
you mentioned, President Trump's proposed budget makes drastic 
cuts. Can you share more about what the effect of those budget 
cuts would be if they were to occur? And what would be the 
trickle-down effect to local workforce boards where the rubber 
meets the road?
    Mr. Painter. Local workforce boards are going to 
experience--you know, there is a certain amount of 
infrastructure, there is a certain amount of fixed cost that's 
in the system because we must maintain one-stops in every local 
area across the country. It's going to have an impact on--we 
look at 5,000 youth, you know, an average cost of $5,000 per 
youth served. I talked to a board recently that has 34,000 
young people 16 to 24 not in the labor force. They have money 
to serve 1,000. Budget cuts are going to impact even that. We 
can't even serve the number of individuals now who are 
eligible.
    Mr. Polis. Thank you. And I yield back.
    Chairman Guthrie. The gentleman yields back. Recognized is 
Mr. Grothman for 5 minutes for questions.
    Mr. Grothman. Thank you very much. I think I will aim these 
at Ms. Paczynski, but if anybody else wants to talk you can 
feel free to chime in.
    I have always been very interested in people with different 
abilities. Yesterday stopping by my office, a gal who I have 
known before, she is 35 years old working at Walmart, you know, 
taking care of herself, and just a tremendous story and a story 
I wish I could repeat it again and again and again. It seems to 
me that this program doesn't necessarily always offer the 
flexibility we would want for people in her position. It is my 
understanding that rehabilitation services administration has 
advised State vocational rehab offices not to refer people with 
disabilities to jobs falling under AbilityOne contracts or 
State set-aside programs. Is that possibly true?
    Ms. Paczynski. In South Carolina, vocational rehabilitation 
is braided within the workforce system. We are true partners in 
finding people employment.
    Mr. Grothman. Okay. If a person learns of any available 
job, are the States being prohibited from providing any 
necessary supports? And I would like any of the rest of you to 
answer, too, if that applies to your State.
    Ms. Paczynski. We are, again, we are moving forward in a 
partnership for individuals going through the vocational 
rehabilitation system.
    Mr. Grothman. Okay. I will ask this one more specific. 
Under section 511 of the Rehabilitation Act of 1973, which is 
amended through this law, it bars anyone with a disability 
under the age of 25 to work under a section 14(c) certificate 
for less than minimum wage unless they have failed one or more 
jobs. Do you believe that is true?
    Ms. Paczynski. I do not have information on that.
    Mr. Grothman. Okay. Okay. I will emphasize to you, and I 
want you to get back to the committee, I sometimes feel we are 
not doing enough to provide flexibility for people with 
different types of disabilities as they transition into being 
self-supporting in life and would like your input to the 
committee in that regard.
    Now, I will give you a general broader question. It is true 
that under President Trump's proposed budget there are some 
cutbacks in these programs. I would like each of you in your 
States to tell me percentage-wise how much of these programs 
right now are State funded as opposed to funded by your local 
businesses or State and local governments.
    Ms. Paczynski. I would have to get back to the committee 
with that information.
    Mr. Grothman. Do you have an approximation?
    Ms. Paczynski. I do not have an approximation.
    Mr. Grothman. Sixty percent, 15 percent?
    Ms. Paczynski. I would like to get back to the committee 
with that information.
    Mr. Grothman. Okay. Any of the rest of you? Yes, Mr. Dubin?
    Mr. Dubin. About 90 percent federally funded.
    Mr. Grothman. Okay. Mr. Painter? Mr. Berlin? In your areas?
    Mr. Painter. It has to be the vast majority of the money is 
Federal money. I mean, I know when we were looking at who's 
paying the cost for the American job centers, that was Wagner-
Peyser and then WIA, the adult dislocated worker and youth 
projects, that were paying well over 90 percent.
    Mr. Grothman. Okay. Mr. Berlin?
    Mr. Berlin. So I was a candidate ----
    Mr. Grothman. You really wouldn't be able to ----
    Mr. Berlin. So I wouldn't have that information.
    Mr. Grothman. Let us know. Okay. Do you feel that there are 
any Federal requirements here, and I will ask any of you that 
we could lift that would give you more flexibility, that would 
make things better? In other words, are there ever, as you 
administer these programs or deal with these programs, 
situations you say, oh geez, why do we have to fill out this 
form, or why can't we do that?
    Mr. Dubin. I believe that there is really a lot of 
prohibitions around marketing. I mean, one of the basic things 
I asked is why aren't we, you know, getting the message out a 
little bit more commercially, like we're used to? And I'd have 
to get back to you on the specifics, but I face some real 
barriers in tapping dollars to do something any of us in 
business would, that's market ourselves in a commercial way.
    So I'll get back to you with recommendations there that are 
more specific.
    Mr. Grothman. Okay. Ms. Paczynski, do you have any--as you 
deal with these programs you kind of feel like either why do I 
have to fill out this form or why can't I do this?
    Ms. Paczynski. I would say that when it comes to reporting 
effectiveness in serving businesses each State would have its 
own performance measure indicators based upon what their 
businesses are indicating what success looks like.
    Mr. Grothman. Okay. So you don't feel in any way your hands 
are tied by Federal rules or regulations?
    Ms. Paczynski. We continue to move forward with the 
implementation. And so at this time I do not have anything to 
offer.
    Mr. Grothman. Okay. I will yield the remainder of my time.
    Chairman Guthrie. The gentleman's time has expired. I now 
recognize Mr. DeSaulnier for 5 minutes for questions.
    Mr. DeSaulnier. Thank you, Mr. Chairman. And I really 
appreciate the work that all of you do and, Mr. Berlin, the 
experience you have had.
    So my question is going to come from a viewpoint that 
having been involved in a workforce investment board as a small 
business owner and then been involved at the State of 
California as an elected official, I carried a bill that both 
had the Chamber of Commerce and the Labor Federation as their 
sponsors. And I thought I had found nirvana. And the bill just 
required that--and this was during the recession, so there was 
a real sense of urgency around the country, and it was true for 
California as well--about getting people to work in an 
environment that no one had seen before in terms of how do we 
get people to work? So the bill just said that 25 percent of 
all your funds has to go to training. Some of our boards 
thought I was the anti-Christ for presenting this. And I don't 
want to sound like--well, Ms. Foxx has accused me when I bring 
this up of sounding like a Republican, so Mr. Chairman and 
Ranking Member, accept this--I have seen really high-performing 
workforce investment boards and I have seen some that aren't so 
high-performing. So we are loathe to prescribe too much, but 
Mr. Dubin and then Mr. Painter, how do we get the level of I 
think urgency that our clients need, both the employers and the 
employees that you seem to have struck, Mr. Dubin, in Maryland, 
to get those high-performing boards to bring the lower-
performing boards up to the same level? And I see too many 
boards in California that are checking boxes, that don't have 
that level of urgency, and want to do what you seem to have 
done in Maryland. So maybe you could address that?
    Mr. Dubin. Well, first, in Maryland, I feel like I have a 
real mandate from our governor. So if it starts there, if it 
starts at the top, you feel, you know, pretty broad-shouldered 
in going and putting arms on people and asking them to come and 
participate. So it comes with leadership.
    We're also self-imposing our own benchmarking right now. 
We're going to be benchmarking and setting the bar higher than 
the Federal standards. So on some of the concerns about the 
Federal standards, I'm not an expert on all the paperwork and 
all the rest, but I will tell you that the standards and the 
ways that we will be judging ourselves, the efficacy of service 
and delivery, is around human beings being employed and the 
stickiness of that employment. And we literally have a task 
force now that I'm participating on as well, with our 
Department of Labor in the State of Maryland, on that 
benchmarking and I think we have an opportunity to sort of be 
one of the national leaders in that benchmarking. And perhaps 
that's a way in teaching those benchmarks that are being 
thought through in 2017 to bring the standard and raise the bar 
for some of the less-performing boards.
    Mr. DeSaulnier. So you have found that to be effective, 
just by having those performance standards? You know, I am sure 
there are boards that perform better than others in your State 
and you are seeing all of the levels come up by doing this.
    Mr. Dubin. We anticipate that will happen. That's why we're 
doing sort of our State higher bar than WIOA benchmarking and 
standards.
    Mr. DeSaulnier. Mr. Painter?
    Mr. Painter. Thanks for the question, Congressman. It 
certainly concerns us as well that we want high-performing 
workforce boards across the U.S. I think one of the victims 
when budgets get tight is that you start letting go of internal 
training. And I think when we look at a labor market that has 
as many transactions in the course of year as the U.S. labor 
market, I think to a degree, collectively, we have been remiss 
in not investing more money in the thousands of people who 
offer assistance to people like Heath across the country. I 
would really like to see us spend more money on internal 
capacity-building for workforce development professionals.
    Mr. DeSaulnier. On a separate issue, but one of my 
colleagues from Michigan brought this up, and I have a lot of 
respect for him, having unemployment rates be sort of the 
performance mark in whether we should lower budgets. But that, 
I think, is just one thing we should consider.
    Mr. Painter, maybe you can sort of respond to that, that we 
have people who are out of the workforce right now, we have 
people on disability, we have got people who need to be 
retrained. So unemployment is not the only measurement we 
should be looking at in terms of reinvesting in these issues.
    Mr. Painter. No, I would agree. I think the situation we're 
in--I had the opportunity the other day to talk to an economist 
who was talking about the situation we're in, that this is 
really a skill development pathway that we have to pursue in 
order to get ourselves out of what we are hearing from 
employers in terms of not being able to find qualified workers. 
To find those individuals who are on the periphery of the labor 
market today takes marketing, takes more effort, takes the 
innovation that we're seeing out of some of the workforce 
boards with better websites, reliance on smartphone messaging 
to individuals. But, you know, again, I hate to sound like a 
broken record, but again, that takes resources to do that kind 
of change.
    Mr. DeSaulnier. Thank you. Thank you, Mr. Chairman.
    Chairman Guthrie. Thank you. The gentleman yields back. Mr. 
Barletta is recognized for 5 minutes for questions.
    Mr. Barletta. Thank you, Mr. Chairman. Mr. Dubin, thank you 
for being here and I appreciate you recognizing the SHINE 
program. I have long been a champion of SHINE from the very 
first day that I toured the program.
    And for those who don't know, it is an afterschool program 
operating in my district that is geared toward students from 
kindergarten through 8th grade. The SHINE program has been 
proven to help kids improve attendance, behavior, test scores. 
Teachers have come forward and saw a remarkable difference in 
these students that were not showing up to school as much, 
their attendance may not have been as good and they were not 
participating, and all of that has changed because of that 
program. And SHINE has showed me that when you awaken the minds 
of young children with hope and possibility of what their 
futures can be that there is no stopping them.
    That is why I am happy that you chose to highlight one of 
SHINE's many strengths, connecting students with career and 
technical experts so that they are exposed to job opportunities 
that they otherwise might not even know exist. We all know that 
we must bridge the skills gap to help more of our constituents 
realize good-paying jobs and to help our local businesses 
thrive. This is good for our communities and it is good for 
America.
    But I believe we must also work to remove the stigma that 
is associated with nontraditional technical careers. Studies 
show that educating students about their options at a younger 
age is central to achieving this goal. After all, even if we 
have job training programs in place they are nothing without 
dedicated and enthusiastic students to take advantage of them.
    So, Mr. Dubin, through your experiences on the Maryland 
Workforce Board, do you have any suggestions on how we can 
better incentivize workforce development organizations to 
engage with afterschool programs like SHINE and how can 
communities work within the existing framework of WIOA to 
establish and identify these partnerships?
    Mr. Dubin. I think the first is with the educators. You 
know, sometimes you get some of the resistance from the 
educators because they are teaching, you know, different sorts 
of skills. You know, educators have their own idea about 
pedagogy, their own idea about the experiences in school. And I 
think that's where some of the block may be, to be candid, is 
having that dialogue and having the, you know, will at the 
State level to have those discussions with your State school 
superintendants or what have you. So I think it's a big one.
    In Maryland, we have very successful CTE programs, we just 
need to find avenues for more funding. I'll be very clear about 
it. I'm a big proponent of, you know, funding. And where you 
get those dollars there's usually big waiting lists. And so, 
you know, funding to CTE, the educators. A lot of employers 
that are looking for skilled people, people that need to be 
trained, in our State they are very much our partners with CTE. 
I think that we're under capacity in what we're producing on 
the CTE side actually.
    Mr. Barletta. I had a local employer approach me just a 
couple of weeks ago and said he had 100 good-paying jobs, but 
literally cannot find people to fill them. In fact, his biggest 
hurdle he said was getting people to pass the drug test. And I 
hear this more and more often and it is discouraging when there 
are so many people unemployed, there are so many jobs that are 
available, and we know what we have got to do, teach the 
skills, but I think somewhere we have got to get back to teach 
basic skills, like showing up to work on time and, you know, 
don't call in sick 5 minutes before you are supposed to show 
up.
    Mr. Dubin. And if I may, that's one of the reasons the 
State of Maryland also spends some considerable resources on 
soft skills. Soft skills are important. Soft skills are very 
important. Not everyone, you know, had the advantage of growing 
up with people around them that taught them the things you need 
to be successful. And so I'm also a big proponent of soft 
skills training. And we see it at the board all the time, those 
big success stories because that little extra element of soft 
skills gave someone the ability to go and do an interview and 
get a job.
    Mr. Barletta. And I am going to close with another 
commercial. If anyone has not heard about the SHINE program, go 
online because it can be a model around the country. We have 
taken kids who may have lost interest and totally redirected 
their lives. When I went in these kids were building robots and 
remote-controlled cars and it was just amazing, and I think we 
have really got to refocus who we are helping.
    Thank you.
    Chairman Guthrie. Thank you. The gentleman yields back. I 
recognize Mr. Espaillat, 5 minutes for questions.
    Mr. Espaillat. Thank you, Mr. Chairman. I ask unanimous 
consent to enter into the record a letter from the Campaign for 
Youth, which underscores the importance of WIOA's Federal 
investment in youth.
    Chairman Guthrie. Without objection, so ordered.
    Mr. Espaillat. Thank you, Mr. Chairman. Mr. Painter, as 
others have mentioned here today, WIOA prioritizes a service 
for those with the greatest barriers to employment, including 
low-income and out-of-school youth. I know this firsthand 
because I benefitted from a summer youth job program in New 
York--in fact, it was my first job opportunity as a young 
teenager--and can attest to how critical funding for these 
programs are. While WIOA focuses funding on out-of-school 
youth, the law still encourages services to low-income and in-
school youth. This means that local workforce systems must 
engage and partner with school districts to serve these young 
people.
    What does that mean for big urban areas like New York City 
that have a large school system and, unfortunately, a very high 
dropout rate?
    Mr. Painter. I think as Congressman Barletta mentioned, 
workforce boards across the country, I'm very happy to say, are 
funded by--NAWB is funded by the Kellogg Foundation to pursue a 
two-generation strategy. When we got the award we put out a 
notice to local boards. We gave them 10 days to respond back to 
us. Thirteen of them came back and asked us to help fund local 
efforts who are working in Montgomery County, Maryland; 
Maricopa, Arizona; and El Paso, Texas. What we discovered is 
that workforce boards, through their business partnerships, are 
involved with the pre-K through 12 system in all aspects, 
working at career days, working with career and tech centers on 
what kind of occupations are in demand, what are the 
certifications that industries in the region are looking at.
    I think, again, with regard to out-of-school youth there 
are places like Cincinnati, Ohio, Hamilton County, where 
virtually 100 percent of the youth money is spent on out-of-
school youth. It is one of the major changes in WIOA and I am 
happy to say that we are making substantial progress in trying 
to figure out how to reach out-of-school youth and reengage 
them, many times through projects like robotics and hands-on 
kind of work-based learning.
    Mr. Espaillat. In fiscal year 2016, New York City alone 
received more than $65 million in total from WIOA funding for 
employment programs serving two groups of New Yorkers: the 
youth and adults. New York City has utilized its funding to 
reconnect our disconnected youth to educational and workforce 
opportunities and has played an integral role in providing 
adults with the necessary skill sets to enter the workforce. 
For example, the Workforce1 Centers, one of which is located in 
Harlem, in my district, received WIOA funding and connected 
25,000 New Yorkers to jobs. Earlier this year, the Workforce1 
Healthcare Career Centers, a specialized center with industry 
expertise in healthcare, worked closely with the center Plans 
for Healthy Living and the second-largest managed long-term 
care provider in New York State. This employer was facing 
severe challenges to find the appropriately qualified 
registered nurses, which seems to be a great need, not just in 
New York State, but across the country. But the healthcare 
center successfully sourced, screened, and referred a number of 
qualified registered nurses to the employer. The result was a 
phenomenal increase: 21 individuals got hired over the course 
of the 1 month as registered nurses, earning between 74- to 
$86,000 per year, and the employer was thrilled to fill so many 
positions so quickly.
    Can you explain what are the real and lasting impacts of 
essentially cutting in half our investment in these critical 
programs, specifically in New York?
    Mr. Painter. Well, I think as you mentioned, Congressman, I 
mean, in many places WIOA is the foundation of these 
connections between out-of-school youth, and in some cases in-
school youth, through the work of the boards. There is nothing 
else. WIOA is the foundation of making these connections.
    In New York, as you mentioned, again, it is one of the key 
partners in the projects that are going on in New York City, as 
it is elsewhere. When you think about summer youth employment 
it is a braiding of funding at the local level between, as Mr. 
Dubin pointed out, business kicking in, local philanthropic, 
CDBG, CSBG, and WIOA funds, all braided to try and provide the 
work experience that we know is essential for young people to 
get to experience. And I'm happy to say, like you, I am a 
former summer youth employment participant.
    Chairman Guthrie. Gentlemen, time has expired.
    Mr. Espaillat. Thank you, Mr. Chairman.
    Chairman Guthrie. Thank you. And I now recognize Mr. 
Thompson for 5 minutes for questions.
    Mr. Thompson. Thank you, Chairman. Thanks to the members of 
the panel for being here today. I am very proud of the work 
that we have done over the past number of years here on this 
Education and Workforce Committee, starting with a strong 
bipartisan piece of legislation that we are doing oversight on 
today, WIOA. And, Chairman, thank you for doing the oversight.
    I have found it is not good enough to pass effective and 
righteous pieces of legislation, but, unfortunately, we are at 
the mercies of unelected bureaucrats on how it gets 
implemented. And in providing that oversight, make sure that 
things stay true to the intent of Congress.
    This WIOA was written with, you know, I am sure there are a 
number of principles you could reflect on, but the whole Learn 
to Earn and skills-based education principles, and those are 
principles we brought forward with the Every Student Succeeds 
Act, which is being implemented now. And next week I am hopeful 
on the floor we will have the Career and Technical Education 
Bill, which obviously was authored following those same two 
principles. And sometime in the future we will do the Higher 
Education Act, which, quite frankly, those two principles work 
for the Higher Education Act as well, Learn to Earn and skills-
based education.
    My first question is, knowing the basic elements of WIOA 
that we really felt were so important, how well have we 
achieved at bringing business and industry a/k/a job creators 
into a majority level on our web boards?
    Mr. Painter. Congressman, I'll take that first. I think I'm 
happy to observe you, sir, have done a very active board that 
----
    Mr. Thompson. I am a recovering web board member.
    Mr. Painter. You are. The first time I ever heard of the 
term ``mechatronics'' as an industry I heard from your 
workforce board as you worked closely with business. That's 
what we're seeing across the country, that there are 
initiatives at community colleges, there are initiatives 
elsewhere that have been brought about because of the workforce 
board's role in convening businesses, in working with sector 
partnerships in their local area that have brought to the 
attention of the whole workforce development system the need to 
sometimes change curriculum, focus more on a particular 
certification than they have in the past. I think we are making 
progress.
    Mr. Thompson. Good. But the essential question, the basic 
point, the starting point, is are we at 100 percent compliance 
with all of our web boards having a majority stakeholder 
interest being job creators today? That was an essential 
element of WIOA.
    Mr. Painter. Let me say, many times people don't call me to 
tell me wonderful success stories. They call me to tell me--
whether it's a State director or a local--it's a problem. I'm 
not aware ----
    Mr. Thompson. Welcome to our world.
    Mr. Painter.--that we have compliance problems. Yes. I'm 
not aware we have those compliance--I'm not aware of boards 
that are not in compliance.
    Mr. Thompson. Okay. No, I just was interested because my 
assumption is we are in compliance, we are moving ahead with 
implementation. So, you know, at one time when I was on a 
workforce board there was a bit of a conflict of interest. It 
was the training and education facilities that had the stronger 
representation. Not that they are not great people, they are 
great partners, but our vision with WIOA was the people who 
knew where the jobs were going to be today and tomorrow were 
the ones we want governing our workforce investment boards.
    So assuming that we are in compliance, have we seen better 
employment success as a result of implementation of in-demand 
skills-based education?
    Mr. Painter. I am going to say I can provide you examples, 
but I'm going to say yes, yes, we have. We have seen the 
example that I cited in Pittsburgh, 100 percent placement.
    Mr. Thompson. Great.
    Mr. Painter. It was not too long ago a guy was in West 
Virginia where the workforce board and the community college 
put together some basic training for advanced manufacturing. 
The placement rate was 100 percent. So I think we are seeing 
the industry move to a very targeted approach.
    Mr. Thompson. That is great. That is better than my 
experience under the old rules where we were training some 
arbitrary list at the State capital that had nothing to do with 
the economic job opportunities in our region.
    Mr. Painter. That's why we appreciated, Congressman, local 
control and local direction for the program.
    Mr. Thompson. There you go. Absolutely. Very quickly, I was 
interested to follow up on the young lady from Delaware. WIOA, 
which obviously I am a big fan of, but, you know, you don't get 
everything quite right and I do have some concerns. Have you 
seen any impacts on individuals with significant physical and 
intellectual needs?
    I love being--I at one time, and, unfortunately, a lot of 
that has gone away--being in shelter workshops on payday. Now, 
I worked with people facing life-changing disease and 
disability for 28 years, so I am committed to lifting people, 
empowering people, moving people to, you know, good gainful 
employment. But some folks have such complex disabilities that 
they just don't reach that level and there was nothing more--it 
was a celebration on payday when those checks were handed out, 
even though they were a couple of dollars maybe. And I am 
finding that one of the impacts of WIOA perhaps, I am not quite 
sure, is that the opportunities for people who just have such 
significant physical and intellectual disabilities they cannot 
get to that minimum wage plus employment.
    And so I have run out of time, but if you have any insight 
into the impacts in your areas, your States, on those 
individuals, I would love to get that in writing.
    Chairman Guthrie. Thanks. The gentleman yields. I recognize 
Ms. Bonamici for 5 minutes for questions.
    Ms. Bonamici. Thank you very much, Mr. Chairman and Ranking 
Member, and thank you for allowing me to join these two 
subcommittees. Even though I do not serve on the subcommittees 
this is such an important issue and I look at it also from my 
K-12 Committee experience and background. There are so many 
overlapping issues I think as we have seen from the discussion 
today. We all hear about the skills gap when we are back at 
home and this has been true regardless of how unemployment is. 
Of course, there are different challenges, as my colleague from 
Delaware pointed out, when there is low unemployment. The need 
is different, maybe more intense because there are people with 
disabilities or the long-term unemployed and still have 
significant challenges.
    One of the things I wanted to note is that the level of 
expertise, and I appreciate all of your expertise as people who 
work in the field and, Mr. Berlin, your success story. Thank 
you for sharing that. The level of expertise on this committee 
I think is really impressive of people who have real world 
experience. I am someone who hears about the skills gap and is 
working hard to address it in a couple of ways. And we talked 
about the CTE legislation, which I am very excited about. I 
hope this time we can get it through the Senate as well as 
through the House.
    Mr. Dubin, you spoke in your testimony about work study and 
working with Mr. Byrne on a bipartisan proposal to help with 
work study funding, but also to help align work study jobs with 
the students' career interests and career path; afterschool 
programs, which was noted in testimony how important 
afterschool programs are. I am extremely concerned about the 
proposed cuts to, for example, 21st century learning. We need 
to make sure that all of those programs are there so that we 
minimize the need to fix the skills gap, that we have more 
people ready for the workforce. Soft skills was addressed.
    The funding challenges are significant and I would like to 
introduce, Mr. Chairman, into the record a letter from the 
Campaign to Invest in America's Workforce. This is addressed to 
the House and Senate Appropriations Committees in support of 
funding workforce programs. These are such a good investment. 
So I would like to introduce that into the record.
    Chairman Guthrie. Without objection, so ordered.
    Ms. Bonamici. Thank you.
    Like Representative Courtney and Chairwoman Foxx, many of 
us, I was at the bill signing for WIOA. It was my first bill 
signing as a member of Congress. It was pretty exciting. It was 
so bipartisan. And I was very proud of that bill and now we are 
seeing it being implemented. One of the things that I 
appreciated and, you know, listening to a lot of the hearings 
when we were working on it, is the coordination and the 
emphasis on coordination between employers, Federal agencies, 
workforce training programs, educational systems, nonprofits, 
and I note, Mr. Dubin, you talked about collaboration that is 
happening in your State.
    One of the things I wanted to talk about, in my district in 
Northwest Oregon, Easter Seals facilitates the Washington 
County Senior Community Service Employment Program, which is an 
Older Americans Act program, but they work together. And I also 
oppose the budget cuts--well, actually the budget that seeks to 
completely eliminate this program--Easter Seals colocates the 
Senior Community Service Employment Program in Oregon's 
WorkSource Centers, which is part of America's Job Center 
network. So as a result of this colocation, the participants 
get to serve optimal access to the training, resources, and 
opportunities they need to develop new skills and reenter the 
workforce. And I tell you, there is age discrimination out 
there. Older Americans have a much more challenging time.
    So, Mr. Painter, can you discuss a little bit the benefits 
of coordinated colocation and how these types of programs 
benefitted from this integration?
    Mr. Painter. Thank you, Congresswoman. In a previous life, 
as a local director, I got to administer senior community 
service employment. So firsthand we got to see the impact that 
it has in providing older Americans with an opportunity to 
reenter the workforce, to acquire different sets of skills. 
You're right, the coordination is critical. It's critical that 
we have an approach to business, that it's a strategic approach 
to business, that it's not necessarily pitting one group at 
another, but it's looking at the business strategy and then 
coming back and as a collective team, which is happening more 
and more, how can we solve this problem and what talent 
resources do we collectively have. And then working, as Heath's 
example, using on-the-job training, using internships. Platform 
to Employment out of Connecticut is a remarkable example of how 
you can take work, on-the-job training, internships, work 
experience, and craft that. But it takes that coordination 
among the providers.
    Ms. Bonamici. Terrific. And as I yield back I just want to 
align myself with Mr. Takano's concerns about the possibility 
of eliminating the registration process for apprenticeships. I 
would be more than interested in hearing examples of how the 
registration process for apprenticeships, if it is not working 
well, if we need to streamline it or fix it. I would be very 
concerned about eliminating it.
    Thank you, Mr. Chairman, and I yield back.
    Chairman Guthrie. I thank the gentlelady for yielding back. 
And that concludes members' questions. I would like to thank 
our witnesses for taking the time to testify before our 
subcommittee today.
    And before I recognize our ranking member for any closing 
comments I just want to say what she said in the beginning, 
when we send letters to each other here we call them ``Dear 
Colleagues,'' but we actually have a dear colleague that is 
recovering and we have four other people who served this House 
and, therefore, served this country that are recovering today. 
But we also, as the day went on yesterday, talked to so many 
other of our dear colleagues who were part of a traumatic 
experience, one that was--I guess the guy started outside of 
third base, shooting, going in, and he was in left field, right 
next to him, but the guy shot into the infield. And so we have 
a lot of people that are going through that. So be mindful as 
we go throughout the day that we have a lot of people hurting 
and we have had a lot of prayers answered as well.
    So I recognize Ranking Member Davis for any closing 
comments.
    Ms. Davis. Thank you, Chairman, Mr. Chairman. And I 
appreciate those comments as well. I wanted to thank you all so 
much. I think it has been a very thoughtful discussion. We 
really appreciate your experiences and your expertise as well.
    And I just wanted to mention so quickly, because I think we 
have a sense of the breadth and the depth of so many, you know, 
fabulous examples throughout our country where people are 
really centered on trying to find the very, very best way to 
help both employees and employers and make the marketplace one 
that works for everyone.
    And one of the issues that we have touched on a little bit, 
but not fully is that one of apprenticeships. And I think that 
what we now have a proposal out there is to be again very 
thoughtful as how we approach that. You know, it is always in 
the details, that it is very, very important, and we want to be 
sure that we don't cut off opportunities in some areas in order 
to do something different that in many cases may not have the 
same kind of accountability. We are talking about American 
taxpayer dollars and we want to be sure that those taxpayer 
dollars go to those programs that we have the ability to really 
be able to understand whether they are helpful or not, whether 
they are doing what we say they are going to do.
    So you have touched on some of that. We are certainly going 
to be having far more discussions in the future, Mr. Chairman.
    And I thank you all very much for being here.
    Chairman Guthrie. Thank you very much. And they've been 
very informative and really appreciate your testimony.
    And without being objection, there being no further 
business, the subcommittee stands adjourned.
    [Additional submission by Ms. Blunt Rochester follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    [Additional submission by Ms. Bonamici follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    [Additional submission by Mr. Espaillat follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
      
    [Additional submission by Ms. Paczynski follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
  
    [Additional submission by Mr. Smucker follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    [Whereupon, at 12:10 p.m., the subcommittee was adjourned.]

                                 [all]
                                 
                                 
                                 
</pre></body></html>
